<html>
<title> - THE FEDERAL ROLE IN THE TOXIC PFAS CHEMICAL CRISIS</title>
<body><pre>[Senate Hearing 115-461]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-461

           THE FEDERAL ROLE IN THE TOXIC PFAS CHEMICAL CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON FEDERAL SPENDING
                   OVERSIGHT AND EMERGENCY MANAGEMENT

                                OF THE

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2018

                               __________

                  Available via http://www.govinfo.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                        


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-955PDF                    WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1275627d52716761667a777e623c717d7f3c">[email&#160;protected]</a> 
                        
                        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California
JON KYL, Arizona                     DOUG JONES, Alabama

                  Christopher R. Hixon, Staff Director
               Margaret E. Daum, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk


  SUBCOMMITTEE ON FEDERAL SPENDING OVERSIGHT AND EMERGENCY MANAGEMENT

                     RAND PAUL, Kentucky, Chairman
JAMES LANKFORD, Oklahoma             GARY C. PETERS, Michigan
MICHAEL B. ENZI, Wyoming             KAMALA D. HARRIS, California
JOHN HOEVEN, Montana                 DOUG JONES, Alabama
                      Greg McNeill, Staff Director
                Zachary Schram, Minority Staff Director
                      Kate Kielceski, Chief Clerk
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Paul.................................................     1
    Senator Peters...............................................     1
    Senator Harris...............................................     3
    Senator Hassan...............................................    14
    Senator Shaheen..............................................    16
    Senator Jones................................................    19
    Senator Carper...............................................    21
Prepared statement:
    Senator Paul.................................................    41
    Senator Peters...............................................    43

                               WITNESSES
                     Wednesday, September 26, 2018

Peter C. Grevatt, Ph.D., Director, Office of Ground Water and 
  Drinking Water, U.S. Environmental Protection Agency...........     4
Maureen Sullivan, Deputy Assistant Secretary of Defense for 
  Environment, Office of the Assistant Secretary of Defense for 
  Energy, Installations and Environment, U.S. Department of 
  Defense........................................................     6
Linda S. Birnbaum, Ph.D., D.A.B.T., A.T.S., Director, National 
  Institute of Environmental Health Sciences and National 
  Toxicology Program, National Institutes of Health, Department 
  of Health and Human Services...................................     7
Brian J. Lepore, Director, Defense Capabilities and Management, 
  U.S. Government Accountability Office..........................     9
Andrea Amico, Co-Founder, Testing for Pease......................    29
Arnold Leriche, Community Co-Chair, Wurtsmith Restoration 
  Advisory Board.................................................    31
Timothy Putnam, Vice President, Tidewater Federal Firefighters 
  Local F-25, International Association of Fire Fighters.........    32

                     Alphabetical List of Witnesses

Amico, Andrea:
    Testimony....................................................    29
    Prepared statement...........................................    82
Birnbaum, Linda S., Ph.D., D.A.B.T., A.T.S.:
    Testimony....................................................     7
    Prepared statement...........................................    56
Grevatt, Peter C., Ph.D.:
    Testimony....................................................     4
    Prepared statement...........................................    45
Lepore, Brian J.:
    Testimony....................................................     9
    Prepared statement...........................................    69
Leriche, Arnold:
    Testimony....................................................    31
    Prepared statement...........................................    89
Putnam, Timothy:
    Testimony....................................................    32
    Prepared statement...........................................    92
Sullivan, Maureen:
    Testimony....................................................     6
    Prepared statement...........................................    50

                                APPENDIX

Statements for the Record:
    Scott Markam.................................................   103
    Michigan League of Conservation Voters.......................   105
    Tess Nelkie..................................................   130
    Jane Lauber..................................................   131
    Martha Gotllieb..............................................   133
    Jeri-Lynne Richardson........................................   135
    Marcy Harig..................................................   136
    Crittenden Family............................................   137
    Julie Spahn..................................................   138
    Wurtsmith Firefighter........................................   139
    Susan Turoski................................................   140
    Ken Turczyn..................................................   141
    Chris Rogers.................................................   142
    Tammy Cooper.................................................   143
    Danny R. Burns...............................................   145
    Linda Cole...................................................   146
    David Gregory................................................   147
    Lisa Whisenant Storey........................................   148
    James M. Bussey..............................................   149
    Jennifer Carney..............................................   150
    Environment America et al....................................   152
    Mayor of Dayton..............................................   155
    Tobyn McNaughton.............................................   157
    Merrimack Citizens for Clean Water...........................   159
    Pamela Miller et al..........................................   161
    National Ground Water Association............................   165
    New Hampshire Department of Envronmental Services............   167
    Oscoda-Wurtsmith Airport Authority...........................   168
    Southern Environmental Law Center............................   171
    Sierra Club..................................................   188
    Eric Tobin...................................................   191
    Water Quality Association....................................   193
    Cathy Wusterbarth............................................   195
    Sandy Wynn-Stelt.............................................   197
Responses to post-hearing questions for the Record from:
    Mr. Grevatt..................................................   199
    Ms. Sullivan.................................................   207
    Ms. Birnbaum.................................................   213
    Mr. Lepore...................................................   217

 
           THE FEDERAL ROLE IN THE TOXIC PFAS CHEMICAL CRISIS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 26, 2018

                                 U.S. Senate,      
                        Subcommittee on Federal Spending,  
                    Oversight and Emergency Management,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Rand Paul, 
Chairman of the Subcommittee, presiding.
    Present: Senators Paul, Peters, Harris, Jones, and 
McCaskill (ex officio).
    Also present: Senators Shaheen, Carper, and Hassan.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. I call this hearing on Federal Spending 
Oversight Subcommittee to order. Today we are here to discuss 
the issue of per- and polyfluoroalkyl substances (PFAS), which 
is a chemical grouping that includes approximately 3,000 
individual chemical chains. Two chains in particular, 
perfluorooctanic acide (PFOA) and perfluorooctane sulfonate 
(PFOS), are of issue here today.
    This issue was brought to my attention by Ranking Member 
Peters as numerous Michigan communities have exposure to this 
chemical. Fortunately, my home State of Kentucky seems to have 
little exposure to these chemicals, and since it is such an 
issue of interest in the Ranking Member's State, I will yield 
to him for his opening statement and submit mine for the 
record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Paul appears in the Appendix 
on page 41.
---------------------------------------------------------------------------

             OPENING STATEMENT OF SENATOR PETERS\2\

    Senator Peters. Thank you, Mr. Chairman. Thank you for 
working in such a bipartisan way to convene today's hearing and 
for your support through the entire process.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Peters appears in the 
Appendix on page 43.
---------------------------------------------------------------------------
    In Michigan, we have seen firsthand the devastation a 
community experiences when it cannot trust the water coming out 
of the tap. In Flint, thousands of families were exposed to 
dangerous levels of lead in their water, and many residents, 
unfortunately, still use filters and bottled water to ensure 
that their water is safe.
    Just over 100 miles north of Flint, residents of Oscoda, 
Michigan, have spent years voicing their concerns about another 
serious environmental and public health threat in their 
drinking water, this time from highly fluorinated chemicals 
known as PFAS. These chemicals are widely used in products like 
non-stick cookware, water-repellent clothing, stain-resistant 
upholstery, and many firefighting foams. They are 
extraordinarily persistent, meaning they do not break down 
naturally in the environment. They accumulate in the soil, in 
our water, in our food, and too often in our bodies. They are 
toxic and they are not well regulated.
    I am grateful to Mr. Leriche for being here today to talk 
about the impact of contamination on his community in Oscoda 
and the challenges residents face around the former Wurtsmith 
Air Force Base.
    Unfortunately, Oscoda is not alone. There are contaminated 
sites throughout Michigan and the entire Nation. Sandy Wynn-
Stelt of Belmont, Michigan, who is here today and I met with 
earlier, was exposed to one of the highest concentrations of 
these chemicals that have been identified in the United States, 
and now has PFAS levels in her blood that are more than 750 
times the national average.
    Tobyn McNaughton is also here. Her 2-year-old son, Jack, 
this beautiful young boy, has what may be the highest 
documented PFAS levels known for children at 484,000 parts per 
trillion. He is just 2 years old. Families in Parchment 
Township, Michigan, were also forced to switch to bottled water 
earlier this summer, and now they fear that their children have 
been poisoned since their birth.
    As a Senator from the State of Michigan, a State surrounded 
by the Great Lakes, the world's largest source of fresh water, 
I am appalled by the number of water crises that we have faced. 
My constituents and people across the country are facing this 
crisis and are also fed up as well.
    Mr. Chairman, I request the permission to enter into the 
record a few statements from Michiganders who are urging swift 
action on these fluorinated chemicals, without objection.\1\
---------------------------------------------------------------------------
    \1\ The information submitted by Senator Peters appears in the 
Appendix on page 103.
---------------------------------------------------------------------------
    I asked for this hearing because I believe that everyone in 
this great country should have access to safe drinking water, 
and I want to do everything I can to ensure that the Federal 
Government is effectively managing this crisis.
    Soon the Senate will approve a Federal Aviation 
Administration (FAA) bill that includes my language to remove 
Federal mandates requiring the use of these chemicals in 
firefighting foams, and I have also worked with my colleagues 
to urge the Environmental Protection Agency (EPA) to swiftly 
establish national enforceable standards to enable longer-term 
cleanup.
    I look forward to hearing more from the EPA today. These 
are important bipartisan steps that we are taking today, but 
they are certainly just the beginning. I look forward to 
hearing more today about what Federal agencies are doing, what 
more they can do, and what Congress must do to identify 
contamination, prevent exposure, reduce harm to human health, 
and to expedite the cleanup and assistance to the affected 
communities.
    Mr. Chairman, before I introduce our panel, I know one of 
our colleagues, Senator Harris, would like to give an opening 
statement. Without objection, she could take that time, and 
then I will introduce each of the panelists for their 
statements. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you, Senator Peters. I want to thank 
the Committee for having this hearing and for the witnesses' 
being here today to testify about PFAS contamination.
    I hope we can all agree that everyone deserves the right to 
breathe clean air and drink clean water. The issue of 
contamination from PFAS chemicals is a critical public health 
issue, impacting the water supplies of millions of Americans 
and the consumer products of millions more.
    I know we have a number of people impacted by PFAS here and 
in the audience, and I want to thank you for being here and for 
your courage to speak up and to let us recognize you.
    PFAS chemicals can be found in the non-stick cookware that 
families use every day. They are in stain-resistant and water-
repellent fabrics that consumers wear. Multiple water systems 
across California have tested positive for PFAS concentrations 
above recommended levels with our military bases experiencing 
especially high concentrations of PFAS from foams that have 
been used to put out aircraft fires.
    These chemicals can accumulate and stay in the human body 
for long periods of time with potentially devastating impact. 
Studies indicate that chemicals such as PFAS can increase 
cholesterol levels. They can lead to low infant birth weights, 
to thyroid hormone disruption, and to an increased risk of 
cancer.
    As we learn more about the toxic nature of these chemicals, 
it is critical that the government take steps to protect public 
health, improve data gathering and transparency, increase 
public awareness and education, and make decisions based in 
fact and hard science.
    I am very troubled by reports that administration officials 
sought to block publication of a report on this PFAS 
contamination crisis because they feared ``a potential public 
relations nightmare.'' Our government should not pretend that 
PFAS contamination is not happening, and we should do something 
about it.
    I am proud that California is leading the way in addressing 
PFAS contamination. Earlier this year, California began the 
process to consider carpets and rugs containing PFAS chemicals 
a priority product under the State's Safer Consumer Products 
Program, and I hope California can be a model for other States. 
Hearings like this, in closing, are important, Mr. Chairman and 
Mr. Ranking Member, to elevate issues impacting public health, 
and I appreciate that all of the witnesses are here and 
everyone who traveled to Washington, D.C., to share your 
stories.
    Thank you.
    Senator Peters. Thank you, Senator Harris.
    I am pleased to intorduce our first panel. This hearing 
will consist of two panels. In the first panel, we are joined 
by four experts in this area.
    First, Dr. Grevatt is the Director of the Office of 
Groundwater and Drinking Water at the Environmental Protection 
Agency. He is responsible for safeguarding America's drinking 
water and overseeing State drinking water programs.
    Ms. Sullivan is the Deputy Assistant Secretary of Defense 
for the Environment in the Office of the Assistant Secretary of 
Defense for Energy, Installations and Environment. She is 
responsible for policies and programs related to environmental 
laws, cleanup of contaminated sites, and emerging contaminants. 
Her professional career spans 38 years serving in the Office of 
the Secretary of Defense and the Defense Logistics Agency in 
Virginia, Michigan, Ohio, and Germany.
    Dr. Birnbaum is the Director of the National Institute of 
Environmental Health Sciences (NIEHS) at the National 
Institutes of Health (NIH) and the National Toxicology Program 
(NTP). She is a renowned expert and board-certified 
toxicologist. Dr. Birnbaum is responsible for researching 
environmental influences on human health.
    Mr. Lepore is the Director of Defense Capabilities and 
Management at the U.S. Government Accountability Office (GAO), 
where he directs audits on the Department of Defense (DOD) 
Infrastructure and Facility Programs, Construction, and 
Environmental Management. Mr. Lepore, I will say, is a frequent 
flyer with this Committee, and we often rely on his hard work 
and astute analysis.
    Good afternoon, and again thank you to all four of you for 
being here today to discuss this extremely important topic. Dr. 
Grevatt, we will begin with your testimony.

 TESTIMONY OF PETER C. GREVATT, PH.D.,\1\ DIRECTOR, OFFICE OF 
GROUND WATER AND DRINKING WATER, U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. Grevatt. Thank you. Good afternoon, Chairman Paul, 
Ranking Member Peters, and Members of the Subcommittee. I am 
Peter Grevatt, Director of the U.S. Environmental Protection 
Agency's Office of Groundwater and Drinking Water, and I also 
serve 
as the Chair of EPA's cross-agency efforts to address per- and 
polyfluoroalkyl substances. Thank you for the opportunity to 
testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Grevatt appears in the Appendix 
on page 45.
---------------------------------------------------------------------------
    Protecting America's drinking water is one of EPA's top 
priorities. I am here today to share with you the actions the 
agency is taking to address PFAS.
    PFAS are a group of manmade chemicals that have been in use 
since the 1940s. PFAS are, or have been, found in a wide 
variety of consumer products and as an ingredient in 
firefighting foam. PFAS manufacturing and processing 
facilities, airports, and military installations are some of 
the contributors of PFAS releases into the air, soil, and 
water.
    Because of their widespread use, most people have been 
exposed to PFAS, and there is evidence that exposure to certain 
PFAS may lead to adverse health effects.
    The EPA has taken steps under its various statutory 
authorities to understand and address these chemicals. For 
example, under the Toxic Substances Control Act (TSCA), the 
agency has issued various significant new use rules for certain 
PFAS chemicals to guard against their reintroduction or new use 
without prior EPA review. Under the Safe Drinking Water Act 
(SDWA), which my office oversees, EPA has also monitored for 
six PFAS to understand the nationwide occurrence of these 
chemicals in our drinking water systems.
    In 2016, EPA issued drinking water lifetime health 
advisories (LHAs) for two well-known PFAS--PFOA and PFOS--of 70 
parts per trillion. EPA is also working to move research 
forward on PFAS to better understand their health impacts, 
options for treatment, and how information on better-known PFAS 
can be applied to inform our knowledge of other PFAS.
    To build on these actions, EPA hosted a PFAS National 
Leadership Summit in May of this year. The summit provided an 
opportunity for participants to share information on ongoing 
efforts, to identify specific near-term actions, and to address 
risk communication challenges with PFAS.
    At the event, EPA committed to work on four significant 
actions:
    First, to evaluate the need for a maximum contaminant level 
for PFOA and PFOS;
    Second, to begin the necessary steps to consider 
designating PFOA and PFOS as ``hazardous substances;'
    Third, to develop groundwater cleanup recommendations for 
PFOA and PFOS at contaminated sites;
    And, last, to develop draft toxicity values for two PFAS--
GenX and perfluorobutane sulfonic acid (PFBS).
    EPA also continues to provide support to States, tribes, 
and communities who are addressing PFAS issues. As EPA takes 
these actions, the Agency is also committed to working with our 
Federal partners, including the Department of Defense and the 
Department of Health and Human Services (HHS). We look forward 
to continuing our interagency dialogue and collaboration.
    Additionally, EPA recognizes the need to hear from 
citizens. Since June, EPA has traveled to five States across 
the country to hear directly from communities. EPA is also 
planning to travel to Michigan next week to hear directly from 
constituents in the State. These experiences are invaluable, 
and community feedback will help shape how we move forward.
    EPA will consider information from the National Leadership 
Summit, community engagements, and the public docket to develop 
a PFAS Management Plan.
    Protecting public health is EPA's top priority. Acting 
Administrator Andrew Wheeler has expressed his continued 
commitment to considering actions on PFAS so that EPA can lead 
efforts that meet the needs of impacted communities.
    Once again, Chairman Paul, Ranking Member Peters, and 
Members of the Subcommittee, thank you for the opportunity to 
discuss PFAS, and I look forward to answering any questions 
that you may have.
    Senator Peters. Thank you, Dr. Grevatt. Ms. Sullivan.

TESTIMONY OF MAUREEN SULLIVAN,\1\ DEPUTY ASSISTANT SECRETARY OF 
 DEFENSE FOR ENVIRONMENT, OFFICE OF THE ASSISTANT SECRETARY OF 
    DEFENSE FOR ENERGY, INSTALLATIONS AND ENVIRONMENT, U.S. 
                     DEPARTMENT OF DEFENSE

    Ms. Sullivan. Chairman Paul, Ranking Member Peters, and 
distinguished Members of the Subcommittee, I am Maureen 
Sullivan, the Deputy Assistant Secretary of Defense for 
Environment. My portfolio includes oversight of DOD's programs 
to comply with environmental laws such as the Safe Drinking 
Water Act and the Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA). I want to thank 
Congress for your strong support for the Department of Defense, 
our national security priorities, and for the funding we need 
to protect our Nation. Ensuring the health and safety of our 
servicemembers, the families living on our installations, and 
the surrounding communities is one of our top priorities.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Sullivan appears in the Appendix 
on page 50.
---------------------------------------------------------------------------
    I also want to thank this Committee for the opportunity to 
discuss the establishment of a national approach to per-and 
polyfluoroalkylide substances. We believe DOD has been leading 
the way to address these substances.
    One commercial product that contains PFAS is Aqueous Film 
Forming Foam (AFFF). This highly effective firefighting foam 
has been used by DOD, commercial airports, local fire 
departments, and the oil and gas industry. However, it only 
accounts for approximately 3 to 6 percent of the PFAS 
production in the calendar year 2000, and DOD is just one of 
many users.
    DOD has committed substantial resources in the last 2 years 
and has taken action to respond to concerns from PFOS PFOA. 
When EPA issued the lifetime health advisories, for PFOS and 
PFOA in May 2016, the Department acted quickly to voluntarily 
test our 525 drinking water systems that serve approximately 2 
million people on our installations worldwide. Twenty-four of 
these systems tested above EPA's lifetime health advisory 
level. Although it is only an advisory, DOD has followed EPA's 
recommendations to include providing bottled water or 
additional water treatment.
    CERCLA provides a consistent approach across the Nation for 
cleanup. The Department of Defense Environmental Restoration 
Program statute provides authorities to DOD to perform and fund 
actions, and requires they be carried out in accordance with 
CERCLA. The first step is to identify the source of known or 
suspected releases. DOD has identified 401 active and Base 
Realignment and Closure installations with at least one area 
where there is a known or suspected release of PFOS or PFOA.
    The Military Departments then determined whether there is 
exposure through drinking water and, if so, the priority is to 
cutoff human exposure where drinking water exceeds EPA's 
lifetime health advisory. Once the exposure path is broken, the 
Military Departments are prioritizing the sites for further 
action using the longstanding CERCLA risk-based process, 
``worst first.'' These known or suspected PFOS and PFOA release 
areas are in various stages of assessment, investigation, and 
cleanup.
    To prevent further releases into the groundwater, DOD 
issued a policy in January 2016 requiring the Military 
Departments to prevent uncontrolled, land-based AFFF releases 
during maintenance, testing, and training activities. The 
policy also requires the Military Departments to remove and 
properly dispose of the supplies of AFFF containing PFOS--other 
than for shipboard use.
    Currently no fluorine-free version of AFFF meets the 
military's very stringent performance requirements to 
extinguish petroleum fires. However, between fiscal year (FY) 
2017 and fiscal year 2019, we solicited research projects to 
identify and test the performance of fluorine-free AFFF. These 
efforts support DOD's commitment to finding an AFFF alternative 
that meets critical mission requirements while protecting human 
health and the environment and will represent $10 million in 
research and development (R&D) funding.
    In summary, DOD is taking actions to reduce the risks. We 
are committed to mitigating PFOS and PFOA releases to the 
environment that are a direct result of DOD activities. DOD is 
making significant investments in research and development for 
fluorine-free AFFF, and these combined efforts reinforce DOD's 
commitment to meet critical mission requirements while 
protecting human health and the environment.
    We look forward to working with you as you move forward. 
Thank you.
    Senator Peters. Thank you, Ms. Sullivan. Dr. Birnbaum.

  TESTIMONY OF LINDA S. BIRNBAUM, PH.D., D.A.B.T., A.T.S.,\1\ 
 DIRECTOR, NATIONAL INSTITUTE OF ENVIRONMENTAL HEALTH SCIENCES 
AND NATIONAL TOXICOLOGY PROGRAM, NATIONAL INSTITUTES OF HEALTH, 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Birnbaum. Good afternoon, Mr. Chairman, Ranking Member 
Peters, and distinguished Members of the Subcommittee. I am 
Linda Birnbaum, Director of NIH's National Institute of 
Environmental Health Sciences. I am also Director of the 
National Toxicology Program, which develops and coordinates 
toxicological testing across HHS.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Birnbaum appears in the Appendix 
on page 56.
---------------------------------------------------------------------------
    For more than 39 years, I have personally conducted 
research in toxicology, and I am here today to provide a 
scientific perspective about the large, complex, and ever-
expanding class of chemicals known as per-and polyfluoroalkyl 
substances.
    PFAS are some 4,700 manmade chemicals that contain fluorine 
atoms bonded to a carbon chain. The carbon-fluorine bond is one 
of the strongest ever created by man, and it is rarely seen in 
nature. The chemical composition of PFAS imparts high stability 
for consumer product design but also makes PFAS extremely 
problematic in the environment because they do not easily 
degrade. In fact, PFAS remain in the environment for so long 
that scientists are unable to estimate an environmental half-
life.
    The use of PFAS is growing, and they are being incorporated 
into more processes and products than ever before. PFAS 
chemicals are making their way into our environment and can 
undergo long-range atmospheric and oceanic transport. PFAS are 
now ubiquitous and have been identified in even the most remote 
environments.
    NIEHS has sponsored basic research investigating health 
effects associated with human exposure to PFAS for three 
decades. Our understanding of the health effects associated 
with PFAS and our ability to draw conclusions is based on 
combined data from many studies, including epidemiological 
associations in human cohort studies, biological plausibility 
and pathways studies in animals, mechanistic effects seen in 
human tissue and cell culture systems, and rapid high-
throughput screening. By combining and carefully considering 
data from all these studies, we can build an understanding of 
how PFAS chemicals impact human health.
    Research conducted to date reveals statistically 
significant associations between human PFAS exposures and 
specific adverse human health outcomes. These include potential 
effects on children's cognitive and neurobehavioral 
development, immune system dysfunction, endocrine disruption, 
obesity, diabetes, lipid metabolism, and cancer. While further 
studies are necessary, mechanistic studies in animals support 
our understanding of the biological underpinnings for these 
associations. NIEHS continues to conduct research to understand 
the biological processes affected by PFAS and how this may be 
harming human health.
    I would like to emphasize four key points.
    First, PFAS are extremely stable and, therefore, persist 
for a very long time in the environment.
    Second, human exposures to PFAS are extremely widespread, 
and humans are exposed to PFAS through many pathways, 
practices, and products. While ingestion, particularly through 
drinking water, is the predominant human exposure pathway, 
recent studies suggest other routes of exposure, including 
inhalation and dermal.
    Third, while we have studies that indicate potential 
adverse health effects due to a few PFAS, our findings are 
limited, and we do not have data for thousands of PFAS that 
have not been well studied. Based on what we know so far, we 
can extrapolate conclusions about structurally similar 
compounds which we can reasonably expect to act through the 
same pathways and have similar effects. With so many PFAS 
compounds, we cannot test our way out of this.
    Finally, I want to point out that we are learning about new 
and different PFAS exposures in many communities, even as we 
learn more about the potential hazards to human health. 
Inevitably questions arise about whether PFAS should be used so 
widely or if safer alternatives exist that still provide 
sufficient product performance. As part of our research 
portfolio, NIEHS contributes substantively to the fields of 
alternatives assessment to ensure harmful chemicals are not 
replaced by equally harmful but less well studied compounds.
    To conclude, Mr. Chairman, NIEHS is well positioned to 
provide new and essential scientific knowledge about PFAS 
consistent with our missions under both the Public Health 
Service Act and CERCLA. We are coordinating our efforts with 
other agencies to prevent duplication, and we are sharing our 
results.
    Thank you for inviting me to participate in this hearing 
today, and I look forward to answering your questions. Thank 
you.
    Senator Peters. Thank you, Dr. Birnbaum. Mr. Lepore.

TESTIMONY OF BRIAN J. LEPORE,\1\ DIRECTOR, DEFENSE CAPABILITIES 
     AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lepore. Thank you, Senator. Mr. Chairman, Ranking 
Member Peters, and Members of the Subcommittee, I am delighted 
to be here today to discuss the Department of Defense's efforts 
to manage contaminants in its drinking water systems. I am here 
on behalf of myself and my colleague Alfredo Gomez, a Director 
in our Natural Resources and Environment team. Our two teams 
collaborated on our statement today and the underlying report 
on which our statement is based.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lepore appears in the Appendix on 
page 69.
---------------------------------------------------------------------------
    You asked us to discuss the Federal role in addressing PFAS 
contamination nationwide. I will make two points. I will 
discuss the actions DOD has taken to address elevated levels of 
PFAS and PFOA in drinking water, and I will describe steps DOD 
is taking to address health and environmental concerns with its 
firefighting foams containing PFAS. But, first, I think it is 
important to emphasize EPA has not yet issued drinking water 
regulations for PFAS.
    EPA has reported working with States and communities to 
monitor water systems for six types of PFAS chemicals. This may 
help them to understand the occurrence of these chemicals 
across the country. Such monitoring is part of a larger 
framework established under the Safe Drinking Water Act. Under 
the framework, EPA is to identify unregulated contaminants 
presenting the greater public health concern, establish a 
program to monitor drinking water for them, and decide whether 
or not to regulate at least five contaminants every 5 years.
    EPA included six PFAS, including PFOS and PFOA, in its 
unregulated contaminant monitoring rule process, and EPA can 
issue a drinking water regulation if warranted.
    Now, even when EPA does not issue a regulation, it may 
publish drinking water health advisories. These advisories are 
not enforceable, but they do recommend the amount of 
contaminants that can be present in drinking water at levels 
that are not expected to cause adverse health effects.
    While EPA has not regulated PFAS, in May 2016 EPA issued 
lifetime health advisories for PFAS and PFOA at individual or 
combined concentrations of 70 parts per trillion in drinking 
water. DOD considers these health advisories in deciding on 
cleanup at its installations with PFAS or PFOA contamination, 
which brings me to my first point.
    DOD's actions to address elevated levels of PFAS and PFOA 
in drinking water. Since issuance of the lifetime health 
advisory, each of the Military Departments have directed their 
installations to: first, identify locations with PFAS or PFOA 
releases and address any consequent risks to human health; 
second, test for PFAS or PFOA and address any contamination 
above the EPA health advisory level. As you heard earlier, DOD 
has identified 401 active or closed bases with known or 
suspected PFAS or PFOA released.
    In January 2017, we recommended to DOD that they include 
the cost of PFAS and PFOA cleanup in annual reports to 
Congress. DOD implemented our recommendation in its June 2018 
report. The estimate at that time was about $200 million.
    DOD has also addressed PFAS and PFOA contamination off the 
installations. DOD has shut down drinking water wells, provided 
alternative sources of drinking water, and installed water 
treatment systems. DOD has also indicated it may still take 
several years to determine the full cleanup costs for PFOS and 
PFOA contamination.
    Now I will turn to my second point: steps DOD is taking to 
address environmental concerns with its firefighting foam. 
These steps include: restricting the use of existing foams 
containing PFAS; testing current foams to determine the amount 
of PFAS they contain; and funding research into PFAS-free 
replacement foams that meet DOD's performance and compatibility 
standards.
    DOD's military specification for firefighting foam requires 
such foam to contain PFAS. At the time of our report, no PFAS-
free foam was available that met the military specification. 
Now, the Navy authors the military specification, and Navy 
officials told us if a PFAS-free foam that meets the 
specification becomes available, they would change the 
requirements. However, as of June 2018, DOD still reported no 
commercially PFAS-free foam met the performance requirements of 
the military specification. DOD-funded research efforts are 
continuing, however.
    Mr. Chairman, Ranking Member Peters, and Members of the 
Subcommittee, I would be delighted to answer any questions that 
you may have.
    Senator Peters. Thank you to each of you for your testimony 
and highlighting what is indeed a significant problem and a 
concern for all of us.
    I am going to start my questions with Dr. Birnbaum. Again, 
thank you for being here. A lot of what is known and discussed 
about PFAS chemicals focuses on two specific chemicals, which 
is PFOS and PFOA. But your testimony included the following 
point, and I would like to take a moment to underscore it 
because I think it is very important.
    You said, ``Approaching PFAS as a class for assessing both 
exposure and biological impact is the best way to protect 
public health.'' That is a significant statement. I think it 
has to be taken to heart, and I want you to paint a little 
picture here for us so we understand exactly what we are 
dealing with.
    Would you please explain just how bad PFAS is relative to 
other more commonly understood contaminants? Basically, if you 
were to compare PFAS to some other contaminant that was 
eventually regulated as a toxic substance, what would you 
suggest as a comparison?
    Ms. Birnbaum. Senator Peters, thank you for the question. 
Some of the problems with PFOS and PFOA and many other members 
of the class is the fact that they never go away. They will 
persist in the environment certainly as long as any of us are 
here, and many of them, like those two as examples, also 
persist in our bodies with half-lives on the order of years--in 
fact, many years. These chemicals build up not only in the 
environment but in our bodies.
    For the compounds that do not last as long in our bodies, 
they still last in the environment so that they will build up, 
so that ongoing exposure can be a problem as well.
    I think if we look at other persistent bio-accumulative 
chemicals, if we compare it to some things like DDT or DDE, 
which, although it was banned 40-some years ago, is still in 
every one of us, or polychlorinated biphenyls (PCBs) that were 
banned by Congress in the late 1970s, and we still all carry 
them in our bodies. I think that is a concern for this class of 
compounds, that they will be with us long after they stop being 
made.
    Senator Peters. That is disturbing, and, in fact, I have 
heard from one researcher who said basically if you are a 
geologist at some point in the future, however many millions of 
years, and you look at the strata in the rock, you will 
actually find PFAS chemicals. That is how long-lasting they 
are. That should be a wake-up call to everyone of what we are 
dealing with.
    I recently spoke with a scientist who also compared the 
presence and use of PFAS in our everyone to the situation we 
once created with lead, as an example. Lead was once used 
everywhere. It was in gasoline, our cars, our pipes and our 
plumbing, and the paint that we used on our walls. As a result 
of that widespread use, lead has created some very serious and 
some very tragic consequences. While we have made progress to 
reduce lead, we are still struggling to replace outdated 
infrastructure with those lead pipes.
    PFAS chemicals strike me as very similar. They seem to be 
used everywhere. What is known about how people are exposed to 
PFAS? How are the contaminants taken into the body? What sort 
of impact would we expect?
    Ms. Birnbaum. PFAS chemicals, we can be exposed to them in 
many ways since they are present in many consumer products, 
including the clothes that we wear, the carpets that we walk 
on, the paper products that are used for food, as well as, for 
example, being released into drinking water. We can ingest them 
from all those routes.
    Also, especially at production facilities or use 
facilities, we can inhale them. When things are inhaled into 
our body, they often have very different effects than when we 
ingest them. Some of the PFAS can be absorbed through our skin, 
so young children crawling around on the carpet may have more 
exposure, for example, than adults.
    Senator Peters. Nationally, communities seem to be focused 
on finding PFAS chemicals, but primarily looking at only a 
handful of those PFAS chemicals. What should we be doing 
differently going forward to better capture the potential risk 
that you are outlining here?
    Ms. Birnbaum. Thank you for that question. It is a very 
difficult question because we really do not know very much 
about the thousands of chemicals that have been produced. There 
are CAS numbers, which are chemical abstract numbers, for 4,700 
of them, but there are additional PFAS which are being produced 
in the environment by breakdown of some of the very long chain, 
the polymeric forms of PFAS.
    Let us see. I think I am forgetting the question.
    Senator Peters. What should we be doing differently to deal 
with all these others?
    Ms. Birnbaum. Yes, so I think the thing is I had suggested 
at the EPA summit several months ago the possibility of 
monitoring for total organic fluoride. There are essentially no 
sources of naturally occurring organic fluorides, and we can 
search for that. There are technological ways that we can do 
that, and we can at least use that for a screening approach. 
Just measure all the organic fluorides and determine where we 
might have a problem and where we do not find many. I would say 
that that is one way for us to get a handle on it.
    Senator Peters. Ms. Sullivan, thank you as well for being 
here and the work that you have been doing on this issue. You 
and I have spoken about Wurtsmith and other sites in Michigan, 
and I know you hear very similar and very sobering concerns 
about hundreds of other sites across the Nation. Yet residents 
of Oscoda are frustrated, to say the least, and I believe 
justifiably so, with the slow pace of both the State and 
Federal action in that area. The EPA withdrew oversight of 
Wurtsmith in 2016, leaving the Air Force and the State to 
handle that cleanup. I realize that you are not in a position 
to discuss specifics, as it is currently the subject of a 
dispute resolution process right now with the State.
    But let me ask you this: From a national perspective, would 
the EPA groundwater cleanup recommendation for PFOA and PFAS at 
a contaminated site be helpful for you at the Department of 
Defense?
    Ms. Sullivan. Thank you for the question, sir. We have been 
requesting that guidance for a number of years. Although we 
can, in fact, use the reference dose behind the lifetime health 
advisory under the CERCLA process to calculate an unacceptable 
risk, it is a site-by-site determination, and it is not a 
national approach, a consistent approach to how to deal with 
these sites. It creates confusion on the part.
    We are moving forward. As I stated, we have identified 
where we are directly impacting drinking water, and we have 
short-circuited the CERCLA process to cutoff those exposures 
where the drinking water exceeds EPA's lifetime health 
advisory. But consistent guidance from EPA would be extremely 
helpful to not only us but all of the entities that have 
sources of PFAS and PFOA.
    Thank you.
    Senator Peters. Thank you, Ms. Sullivan. I am out of time. 
I am going to have more questions for the panel but Chairman 
Paul has some questions.
    Senator Paul. I was just thinking about when Dr. Birnbaum 
said there are no natural sources of organic fluoride 
compounds. When you use the term ``organic fluoride,'' do you 
mean fluoride hooked up to carbon? Is that why you call it 
``organic?''
    Ms. Birnbaum. Yes, that there are--I should have said 
``almost no''----
    Senator Paul. OK, because we add fluoride to our water. We 
add fluoride salts, right?
    Ms. Birnbaum. We do add fluoride salts to some drinking 
water.
    Senator Paul. Fluoride salts do not--is there a possibility 
they can chemically react with alkyl substances that are in the 
water separately and you could be fluorinating things and 
actually creating PFAS?
    Ms. Birnbaum. There is no evidence for that occurring.
    Senator Paul. But, chemically, does that happen? How hard 
is it to polyfluorinate an alkyl substance? Does it take 
electricity? Does it take some--to get the reaction to work? Or 
is it something that if you mix fluoride with carbon, you can 
get carbon hooked up to fluoride?
    Ms. Birnbaum. I do not think it is an easy reaction to 
cause, but I will be glad to provide more information on that.
    Senator Paul. I am not saying there is a problem with 
fluoride in the water. What I am just saying is that we do put 
it in there, and somebody should have an answer for that. Does 
anybody else have an answer to the question?
    Mr. Grevatt. Not beyond what Dr. Birnbaum stated. We would 
be happy to circle back with you, but I know it is a fairly 
complicated process to manufacture----
    Senator Paul. It is probably scientifically not really 
possible. If somebody would just look it up and get back to us 
in a written form, I think to reassure people about fluoride in 
the water, that fluoride does not react with alkyl substances, 
I think that would be helpful.
    The only other question I had was, we are going to have 
some people, I think, who are going to present, who have very 
large levels of this in their system. Is there a theory as to 
why some people would get so much of it and then others would 
not, in that we are all sort of exposed to a lot of the same 
things as far as the drinking water and carpets, etc?
    Ms. Birnbaum. I think that there is some data that suggests 
that people living near use facilities may have higher levels 
because there is more release into the environment----
    Senator Paul. Living near what?
    Ms. Birnbaum. Living near a use facility. In other words, a 
place where the PFAS are being used to make products, or by a 
production facility. There is some data that suggests that very 
young children have higher levels, for example, than their 
parents, and much of that, again, is related to their behavior.
    Senator Paul. Then the only other question I have is that 
when you are looking at regulating something like this or 
trying to prevent it from happening, there are certain things 
that probably would be easier to get into the water--a piece of 
plastic, a plastic bottle, or something--the PFAS from that 
getting into the drinking water is less likely than, say, foam 
sprayed on a runway and it rains and gets into the storm water 
drainage. Is there an estimate of where more of the problem is 
coming from? Is a lot of it this firefighting foam? Or, are we 
saying that the problem is more related to one entity that 
makes this as opposed to non-stick cookware?
    Mr. Grevatt. If I may, Dr. Birnbaum. Thank you for the 
question, it is a really important one, and this really is 
about the sources. As Dr. Birnbaum mentioned, we know that 
across the population in the United States, through the NHANES 
Survey, we know that there are levels in most of our bodies. 
But there are much higher levels where there are particular 
sources like near sites where firefighting foams have been 
used--that is not only military bases; that can be airports and 
other fire training areas--near manufacturing facilities, and 
we have seen some instances where we actually have visited EPA 
communities impacted by manufacturing facilities. There are 
particular areas around known sources where the concentrations 
can be quite elevated beyond the rest of the population in the 
country.
    Senator Peters. Thank you, Chairman Paul. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you very much, Chairman Paul and 
Ranking Member Peters, for holding today's really important 
hearing. To all of the witnesses, thank you as well for being 
here.
    Before I begin with questions, I would also like to thank a 
lot of the advocates from around the country who have really 
taken this on, particularly in my home State of New Hampshire. 
Thank you for taking the time to come meet with me and my 
colleagues to discuss how the PFAS crisis is affecting 
communities in New Hampshire and around the country. Mr. 
Chairman, I have had numerous people write in about their 
experiences with PFAS, and I believe these letters provide a 
resource for those who want to learn more. They tell personal 
stories, and I would like to submit them for the record.\1\
---------------------------------------------------------------------------
    \1\ The letters referenced by Senator Hassan appears in the 
Appendix on page 103.
---------------------------------------------------------------------------
    Senator Paul. Without objection.
    Senator Hassan. Thank you.
    Dr. Birnbaum, I want to build a little bit on the testimony 
you have already provided to us. We have heard a lot about PFAS 
exposure around Department of Defense bases, and I think you 
know, and Dr. Grevatt just actually mentioned, it is also 
important to discuss industrial contamination as well.
    In New Hampshire, a number of communities, including 
Merrimack, have been struggling for 2 years to address PFAS-
tainted water wells around a use facility called ``Saint-
Gobain.'' You spoke about the multiple exposure pathways that 
we should be paying attention to. Can you elaborate on how your 
agency is coordinating between and among the Federal agencies 
on developing toxicological profiles and human health risk 
assessments for PFAS chemicals?
    Ms. Birnbaum. Thank you for the question. NIEHS is part of 
NIH, and it conducts biomedical research. We are conducting and 
funding a great amount of research looking at what the 
potential health impacts would be from exposures to this very 
large class of chemicals. Our National Toxicology Program is 
actually conducting rapid studies to try to get a handle of a 
much larger number than just PFOA and PFOS, and we collaborate 
with our 
Federal partners--the EPA, the Department of Defense, the 
Centers for Disease Control and Prevention (CDC), the FDA, and 
others--so that they will have the information they need to 
make good policy choices.
    Senator Hassan. Thank you. That is very helpful, and we may 
follow up with you a little bit more about where that 
coordination is happening and how we can help support it.
    Dr. Grevatt, PFAS is a national issue, and the need to 
understand the significance of this chemical class within our 
impacted public drinking water systems is critical. However, 
much of New Hampshire and, frankly, the Northeast, for that 
matter, is serviced by private drinking water wells and 
systems. Can you please share with me what type of technologies 
exist to effectively, safely, and affordably conduct tests at 
private wells to ensure safe water quality? What is the EPA 
doing to make these testing technologies available to those who 
believe they have been affected?
    Mr. Grevatt. Yes. Thank you very much for the question, and 
we were very pleased to be able to visit with many of the folks 
who are here in Exeter when we traveled up there for our first 
community engagement meeting.
    As you stated, this has been an issue both in community 
water systems and in private wells. EPA has studied the 
Nation's drinking water systems in terms of occurrence, but 
also has been supporting sampling of private wells in 
communities, particularly in terms of providing technical 
assistance on those issues.
    We are currently examining the utility of various treatment 
technologies, both for community water systems and also for 
point-of-use devices for private wells to make sure that we can 
help to identify strategies to address those concerns that have 
risen in a number of communities. This has been a very 
important part of our work.
    Senator Hassan. I thank you for the work. Are there 
technology improvements that are being worked on or lie ahead 
to improve the treatment of drinking water and reduce the cost 
to private well owners?
    Mr. Grevatt. Absolutely, without question, and EPA has an 
active research program, in collaboration with other Federal 
partners, to identify technologies for treating these compounds 
not only in drinking water but actually in other sources like a 
contaminated site. This is a very active area of research for 
us.
    Senator Hassan. Thank you.
    To Ms. Sullivan, as you mentioned, the CERCLA, establishes 
liability for remediation and natural resource damages for 
releases of hazardous substances into the environment, but not 
other pollutants or contaminants.
    What is the position and moral obligation of the Department 
of Defense on responding to releases of PFAS from current and 
former U.S. military installations for which there is no 
current liability under CERCLA?
    Ms. Sullivan. I want to think through that question, ma'am.
    Senator Hassan. Sure, yes.
    Ms. Sullivan. That is a complicated question, to be honest 
with you, because our obligations do stem from CERCLA and from 
the Defense environmental restoration account statute on what 
our responsibilities are. Once there is enough toxicological 
information about a compound, EPA has established a clear 
process, a longstanding clear process, of how you enter into 
the CERCLA process when you have enough information. The 
reference dose behind the lifetime health advisory is that 
trigger to say, yes, there is enough information about the 
toxicology to roll it into the CERCLA risk assessment process.
    Senator Hassan. I am going to push back a little bit here 
because we have a process established, and I think for people 
in New Hampshire whose wells have been impacted, whose water 
systems have been impacted, or parents whose children are 
crawling on carpeting on industrial uses, but when we are 
talking about DOD base exposures, people are very concerned 
about the harmful nature of these chemicals, and they want DOD 
to be stepping up now to help them get clean drinking water and 
to help reduce their exposure for firefighting foam. Waiting 
for the perfect situation where CERCLA would apply under its 
current parameters may not get people the help that they are 
looking for right now.
    Ms. Sullivan. Ma'am, I appreciate what you are talking 
about. That is why we said that our first priority is cutting 
off drinking water exposure----
    Senator Hassan. Right.
    Ms. Sullivan [continuing]. That is above the lifetime 
health advisory. We have done that as, in essence, a removal 
action under the CERCLA process. Doing it prior to going 
through the full CERCLA investigation risk assessment process, 
to work with the communities, and as you know, the Air Force 
has just signed an agreement to provide Portsmouth with over 
$14 million to build a treatment facility there.
    Senator Hassan. Right, and I appreciate that. I think we 
are going to be looking for scaling that kind of response up.
    I see that I am over, but the other part of this question 
is: What is DOD doing with handling waste materials, for 
instance, that contain PFAS? We can follow up on that.
    Ms. Sullivan. I would be glad to.
    Senator Hassan. Thank you.
    Senator Peters. Thank you, Senator Hassan. Senator Shaheen.

              OPENING STATEMENT OF SENATOR SHAHEEN

    Senator Shaheen. Thank you very much, Chairman Paul and 
Ranking Member Peters. I very much appreciate your willingness 
to let me sit in with this Subcommittee as you are holding this 
hearing. Thank you to all of the witnesses. As you could tell 
from my colleague from New Hampshire Senator Hassan, and as 
many of you already know, this is a huge issue for us in New 
Hampshire.
    I would like to actually begin with you, Dr. Grevatt, 
because I think Senator Peters referenced the report which we 
learned that the Agency for Toxic Substances and Disease 
Registry (ATSDR), had delayed, that indicated the impact of the 
minimum risk levels for PFOA and PFOS should be 10 times lower 
than what the agency had previously determined.
    Dr. Grevatt, based on those findings, is the EPA 
considering updating the lifetime health advisories for those 
chemicals?
    Mr. Grevatt. Thank you very much for the question, and 
thank you also for your support of our work in New Hampshire. 
We are very close collaborators with ATSDR. We work with them 
on their toxicity profile, and they are actually working with 
us right now on toxicity assessments we are doing on additional 
compounds--PFBS and GenX--as is Dr. Birnbaum, the folks at 
NIEHS, and at the Department of Defense.
    We are not planning currently to update our drinking water 
health advisories for PFOA and PFOS. We recognize, as does 
ATSDR, that the purposes of their toxicity profile differ from 
our health advisories. Theirs is really focused on a screening 
approach, and that is part of the reason why they have lower 
values than we have. We believe that our health advisories are 
supported by the strongest science, and we also appreciate why 
they took the direction they did in their toxicity profiles.
    Senator Shaheen. As you are working with them, do you have 
any kind of timetable whereby you expect to definitively 
determine whether the levels make sense going forward? Or are 
you telling me that, based on the science, you believe that you 
have set the correct levels for human health?
    Mr. Grevatt. Yes, based on the current science, we believe 
that the health advisory value that we have developed is 
supported, and we subjected that to independent external peer 
review, and we believe that the findings were supported. But in 
saying so, I am not trying in any way to discount the 
importance of ATSDR's toxicity profile, but really to recognize 
that the purposes of their profile differ somewhat. It is 
really a screening tool. If levels are found above the values 
they have established, that is an indicator of the need for 
additional investigation as opposed to our drinking water 
health advisories are really trying to identify a level below 
which we believe it is safe and above which we believe that 
action should be taken. In fact, that is the way the drinking 
water health advisory has been used.
    Senator Shaheen. Are you going to be paying attention to 
the health study that they currently have underway? Will the 
outcome of that have any impact on whether you decide to change 
the levels that you are recommending?
    Mr. Grevatt. We will be paying very careful attention to 
that work, as we are paying very careful attention to the work 
that Dr. Birnbaum has underway at NIEHS and other research 
organizations as well. As the science continues to develop, we 
will look back at this issue and make sure that we continue to 
have a value that reflects the best science. That is our 
commitment.
    Senator Shaheen. I think there is a great deal of concern 
among people in New Hampshire who have been affected by these 
chemicals that we really do not know enough yet about the 
science to be able to make definitive determinations, and that 
is why the health study is so important.
    Dr. Birnbaum, in July, the Centers for Disease Control and 
Prevention issued a report that said New Hampshire had for the 
period of time between 2003 and 2014 the highest rates of 
pediatric cancer in the country. There is a cluster of 
pediatric cancer in the seacoast, close to where we have seen 
those elevated levels of PFAS chemicals from the closure of 
Pease Air Force Base. I wonder if you could describe the work 
that you are doing at NIEHS to connect PFAS exposure to cancer 
and how you are working with ATSDR as they are looking at this 
health study?
    Ms. Birnbaum. Thank you for your question, Senator Shaheen. 
We are working very closely with and providing consultation to 
ATSDR related to the funding that they have gotten through the 
Department of Defense to deal with eight sites at different 
places in the country. The studies are initially going to be 
looking at exposures so that we really know what people are 
exposed to at those sites, and then the health effects parts 
will come later. We are looking at quite a number of years 
before we will have a lot of data from those studies.
    At the same point, we----
    Senator Shaheen. I am sorry to interrupt, but can you be a 
little more specific when you say ``quite a number of years.'' 
Are you talking about 5 years, 10 years, or 20 years?
    Ms. Birnbaum. I would say we are looking at a 5-year 
window. That would be realistic. These are very difficult 
studies to conduct, especially when you are dealing with people 
living on or around military bases, there is a lot of movement, 
so it is sometimes hard to track people.
    Senator Shaheen. Sure.
    Ms. Birnbaum. Many of our grantees are actually looking at 
the relationship between this class of chemicals and different 
kinds of cancer. So far there are associations that have been 
reported by our grantees and others that have shown 
associations with a wide variety of cancers. We are not talking 
about just one type. But we have not seen an increase in 
pediatric cancers in the studies that have been conducted to 
date. That may in part be because the question has not yet been 
asked, so I think that there is an opportunity to investigate 
this elevated rate that appears to be especially in a specific 
region of New Hampshire. We would welcome grants in that area.
    Senator Shaheen. I am not quite clear when you say 
``because the question has not been asked.'' What exactly do 
you mean by that?
    Ms. Birnbaum. When people design, say, whether it is an 
animal study or a human study, people usually have a hypothesis 
that they are testing. Most of the animal studies which provide 
the biological plausibility to say what we might see in an 
epidemiology study makes sense have focused on adult animals, 
not developing animals.
    Senator Shaheen. As you all know, there were two child-care 
centers that were located on Pease where children drank that 
water almost from birth. I hope that that question will be 
asked as part of the study.
    Thank you all very much. Mr. Chairman, I am out of time, 
but I have a statement here from the Merrimack Citizens for 
Clean Water\1\ as well as the Commissioner of our Department of 
Environmental Services in New Hampshire that I would like to 
ask be introduced for the record.\2\
---------------------------------------------------------------------------
    \1\ The statement referenced by Senator Shaheen appears in the 
Appendix on page 159.
    \2\ The statement referenced by Senator Shaheen appears in the 
Appendix on page 167.
---------------------------------------------------------------------------
    Senator Paul. Without objection.
    Senator Peters. Without objection.
    Senator Shaheen. Thank you.
    Senator Peters. Thank you, Senator Shaheen. Senator Jones.

               OPENING STATEMENT OF SENATOR JONES

    Senator Jones. Thank you, Senator Peters, and I appreciate 
the opportunity. Thank you all for coming here today.
    Like New Hampshire, I have a different issue in Alabama. We 
have a number of water supplies in Alabama that a bunch of 
constituents are affected by what appears to be private 
manufacturers, and the water supplies have been contaminated. 
It is obviously a very real concern to those constituents. I 
know there is some litigation. But I was wondering, Doctor, you 
stated that you have begun the necessary steps to consider 
designating PFOA and PFOS as hazardous substances. Could you 
walk me through that process and give me some kind of 
estimate--and I know as you sit here today, it will not be 
firm. It is always a moving target. But walk me through that 
process and give me some idea of the timeline for a potential 
designation.
    Mr. Grevatt. Right, certainly. Thank you, Senator. This is 
a very important question and a very important action we are 
exploring carefully at EPA. The reason why this is so important 
is that designation as a hazardous substance will provide EPA 
with the authority and States that are implementing CERCLA with 
the authority to both order cleanup actions at contaminated 
sites and also recover costs that are expended by the agency 
for those actions. There are five statutory mechanisms through 
which these substances could be listed as hazardous substances, 
and that includes a number of statutes in addition to CERCLA. 
We are looking carefully at the various avenues by which this 
could be accomplished, and we are going to include this as an 
important component in the agency's management plan that we 
hope to have completed by the end of the calendar year.
    As you point out, such an action is a public notice and 
rulemaking action, so there would be a proposed rule, 
regardless of the statutory mechanism, a proposed rule, public 
comment, and then consideration, careful consideration and 
comment to get to a final rule. We are talking about years 
before we could have that completed in all likelihood, just 
recognizing that if the process started, even at the end of the 
year, we would have to go through the proposal and then the 
final rule to get there.
    Senator Jones. Right. Given the other testimony we have 
heard about how stable these substances are, I would encourage 
EPA to get that moving as quickly as possible. I have had some 
experience as a Special Master when Anniston--for the PCB 
cleanup there, I did that for a number of years.
    I have another question that is related to that, and I know 
that there will be at some point a public comment, but I am 
curious as to if you are already hearing anything from any of 
these manufacturers, any kind of pushback or--have any of these 
manufacturers started contacting the EPA with any information 
or anything like that before this comment period starts?
    Mr. Grevatt. Related to the question of listing as a 
hazardous substance, I do not know that we have had discussion 
with manufacturers on that particular issue, although I will 
note that we did have the manufacturing community present at 
the National Leadership Summit this past May, and this was a 
topic of discussion there. But, without question, primarily 
through our TSCA program, we have ongoing engagement with the 
manufacturing community on a wide variety of issues, but 
probably the most prominent ones that we have implemented 
through EPA using TSCA are both the voluntary phase-out of PFOA 
and PFOS, but also the significant new use rules that I 
mentioned that have kind of locked that phase-out in place and 
requires manufacturers to notify EPA through TSCA Section 5 
before they can take steps to begin to reintroduce those 
compounds into commerce. There has been quite a bit of work 
with the manufacturing community on those particular issues.
    Senator Jones. All right. I hate to belabor the point 
because it is a pretty complicated process that you guys go 
through. Has there been any specific pushback to say do not 
designate this as a hazardous substance?
    Mr. Grevatt. Not that I am aware of, sir.
    Senator Jones. All right. That is great. Thank you.
    This would be to anyone, but, again, particularly to EPA. 
Are there any steps being taken right now to just kind of raise 
awareness of the issues so that people are looking at this? 
What can we do particularly for small water systems? That is 
where my big concern is in a State like Alabama.
    Mr. Grevatt. Yes, thank you for the question. There is a 
great deal underway to raise awareness of this issue and also 
to engage the public and the States and local communities on 
these challenges, both through the National Leadership Summit 
and then through the community engagement meetings we have had 
now in five States around the country. I cannot emphasize how 
important it has been to meet with local citizens to hear the 
challenges that they are experiencing as we think about the 
development of the National Management Plan, which is going to 
be a comprehensive view of steps that we can take across our 
statutory authorities in collaboration and support of States 
and local communities to address these issues.
    We are hoping to have that completed by the end of the 
calendar year, and we will continue both through our website 
presence but also reaching out to communities--and I mentioned 
to Senator Peters we will be in Michigan next week for another 
engagement with constituents there. We are going to continue to 
talk to communities across the country on these issues. Small 
systems are, without question, a challenge, and technical 
assistance is a priority for us to small systems, and I think 
you know that we fund a number of technical assistance 
activities for small systems.
    Senator Jones. Great. Thank you very much. Let me just say 
in the remaining time I would invite you to north Alabama. 
There are people anxious to talk to you as soon as possible, so 
I would invite you, and my office will be happy to help arrange 
and facilitate that as part of Region IV down in the Atlanta--
--
    Mr. Grevatt. We appreciate the invitation. Thank you.
    Senator Jones. All right. Mr. Chairman, I am going to yield 
the remaining part of my time. Thank you.
    Senator Peters. Thank you, Senator Jones. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. I want to thank my friend from Alabama for 
yielding 47 seconds to his colleague.
    Senator Jones. It is the least that I could do. [Laughter.]
    Senator Carper. Welcome. It is good to see you all again, 
some of you for the first time, others not the first time. This 
past February, the little town of Blades, Delaware, which is in 
the southwestern corner of our State, just under 1,500 people, 
found that the drinking water had been contaminated with PFOA, 
one of 
the PFAS classes of chemicals. Delaware State officials, along 
with--it was really an ``all hands on deck'' situation. You had 
the fire company, you had the Delaware National Guard, you had 
the Delaware Division of Health, the Department of Natural 
Resources, and our congressional delegation, all descended on 
this little town to try to make sure that they got the help 
that they needed. They got it in the form of bottled water 
provided to town residents. They got it in the form of a 
filtration system which was added to the public water supply 
system.
    The likely source that was subsequently identified was 
plating companies in the area that used PFOA to coat cookware, 
and the reality of this situation in communities around the 
country is that the discovery of these chemicals is now a 
fairly frequent occurrence, as we know. By the time the 
contamination is discovered, though, citizens may have been 
exposed not for just weeks or months but actually for years.
    We have a big Air Force base, a big airlift base in Dover. 
I believe that the Federal agencies such as DOD, which used 
these chemicals in ways that resulted in releases into the 
environment need to take the necessary steps to clean up this 
contamination wherever it is threatening harm.
    I also believe that the companies that made these chemicals 
need to share some of the responsibility for finding solutions 
to the contamination that their chemicals created.
    A company called ``Chemours,'' which is an offshoot, if you 
will, of DuPont, a big chemical company--the chemical part of 
DuPont is called ``Chemours.'' But Chemours, for example, has 
taken responsibility for past contamination. They have 
announced future plans to reduce air and water process 
emissions of these chemicals, not just by a little bit but by 
99 percent or greater, and we commend them for that.
    However, just last week, representatives of a new industry-
funded group provided my office with documents that appear to 
be aimed at calling into question the science that shows these 
chemicals to be dangerous. Specifically, the document states, 
and I quote, ``The weight of the scientific evidence does not 
show that PFOA or PFOS cause health effects in humans.''
    Let me just repeat that. It says, ``The weight of the 
scientific evidence does not show that PFOA or PFOS cause 
health effects in humans.''
    I would just like to ask all of you--I do not ask a lot of 
yes or no questions, but this is going to be one. Do any of you 
agree with this industry statement that says that neither PFOA 
nor PFOS cause health effects in human? Does anybody agree? If 
you agree with that, raise your hand.
    [No hands raised.]
    Senator Carper. OK. If you do not agree with that, raise 
your hand?
    [Hands raised.]
    Thank you. All right. It looks like nobody raised their 
hand the first time through, and about two of you on the 
second, and a couple people reached a little bit, but not a 
full extension. Let the record show that. [Laughter.]
    A question to Dr. Grevatt. Is there enough data for EPA to 
decide to regulate these chemicals? The industry document that 
my office obtained and that I just mentioned also states that, 
``Policies and actions must be guided by the best available 
science rather than fear-driven discussions.''
    Now, I actually agree with that statement, but unlike the 
industry group that wrote this document, I do believe that 
enough study has been done to take action, and I would just ask 
of you, Dr. Grevatt, in your opinion, is there enough available 
science about PFOA or PFOS for EPA to decide whether to 
regulate them?
    Mr. Grevatt. Yes, sir, I believe there is enough 
information for us to make that decision, and I think you are 
familiar with the criteria under the Safe Drinking Water Act to 
support that decision. Those are issues that the Administrator 
is looking very carefully at right now.
    Senator Carper. All right. Thank you.
    I am going to ask other questions of the other folks. I am 
not picking on you, but I do have at least one more. I was 
going to ask: What steps is EPA considering and when? There are 
several ways EPA could regulate these chemicals. First, I 
believe that EPA could announce it is setting a drinking water 
safety standard for these chemicals. My question would be: When 
do you expect EPA might announce whether it plans to regulate 
these chemicals in drinking water? How long do you believe it 
would take EPA to finalize a drinking water standard?
    Mr. Grevatt. Thank you. Similar to the question on 
hazardous substance listing, we plan to address this issue in 
the National Management Plan, which we hope to have completed 
by the end of the calendar year. This would also be a public 
notice and rulemaking action, so we would have to do a proposed 
rule with public comment and a final rule before we could move 
forward, and that would take over a year, certainly, to do 
that. I would think we would be talking about some number of 
years to complete that action.
    Senator Carper. All right. Just to follow up, and you may 
have just answered this, but EPA could also list these 
chemicals as hazardous substances under the Superfund law, 
which would facilitate the cleanup of these chemicals, as you 
know. Let me just ask this question: When will EPA--and if you 
have already answered this, I apologize, but when will EPA 
announce whether it plans to designate these chemicals as 
hazardous substances? How long would such a designation take to 
finalize?
    Mr. Grevatt. Thank you. A very similar answer to the last, 
that we will be addressing this issue in our National 
Management Plan, which we hope to have completed by the end of 
the calendar year. It would have to go through a proposal and 
then a final rule, so that will take some number of years to 
complete.
    Senator Carper. All right.
    Mr. Grevatt. Those are the two most significant regulatory 
actions that we are talking about right now, the hazardous 
substance listing and the development of an MCL. There are 
other things certainly much broader that we are looking at at 
EPA comprehensively, but those are the two biggest regulatory 
actions that we are currently contemplating.
    Senator Carper. All right, good. You are just doing so 
well, I am going to just ask you one more. In 2015, EPA 
proposed regulation of some of the uses of some of these 
chemicals through what I think is called a ``significant new 
use rule'' under TSCA, which has not yet been finalized. Since 
that time, Congress also gave EPA more authority to assess 
chemical safety under TSCA.
    My question would be: When do you expect that EPA will 
announce whether it plans to use its TSCA authority to regulate 
these chemicals? Could you give us a sense of the range of 
options that might be under consideration?
    Mr. Grevatt. Certainly. Your statements are exactly 
correct. We did propose a significant new use rule, and then we 
have the Lautenberg Act with additional authorities to the 
Agency under TSCA. We are currently in the process of 
developing a supplementary proposal to that rule that reflects 
the new authorities that we have received from Congress through 
TSCA, and that work is underway. We would be glad to follow up 
with your office with specific further input on that from our 
TSCA team if that would be helpful to you.
    Senator Carper. All right. That would be great.
    Ms. Sullivan, I was going to ask you the next question, but 
we are going to let Mr. Grevatt answer it for you. No, I think 
my time has expired, so thank you all. Thanks very much. This 
is important stuff to us in Delaware, and I know it is in other 
States as well, so thank you very much.
    Senator Peters. Thank you, Senator Carper.
    We do want to get to a second panel, but I think a few of 
us have a couple of other questions that we would like to 
follow up on, and we will try to move that along. Then we will 
bring on the second panel.
    Dr. Grevatt, you have mentioned a couple times now about 
the meeting next week in Michigan. Could you be more specific 
as to when you plan to be there and who will be there as well?
    Mr. Grevatt. Right. Thank you very much, sir. We plan to be 
there on the 5th, Friday the 5th, and also on the 4th, and I 
know our team in our congressional office is working with your 
staff as well as the rest of the Michigan delegation on the 
specifics of that. I do not have a location to announce for 
you, but we are going to be very happy to work with you and the 
other representatives' staff and the rest of the team from 
Michigan on setting this event forward.
    We plan to have a roundtable event. We expect to have some 
opportunity for the public to participate and also for press to 
participate in that. But we are going to want to bring together 
key stakeholders from the State reflecting the challenges that 
you, in fact, have addressed from the multiple different areas 
in the State of Michigan.
    Senator Peters. Right. There is going to be plenty of 
opportunity for people in Michigan to be heard at this meeting. 
That is the important thing, which I appreciate.
    We heard before, as I ended my questioning with Ms. 
Sullivan, about the importance of having some EPA 
recommendations for contaminated sites to have some standards. 
My understanding is that the EPA is currently developing those 
recommendations for contaminated sites. I am a little clearer 
on some of the answers that you had to some of my colleagues, 
but that was supposed to be done and completed this fall. Are 
you still on track to have those recommendations for 
contaminated sites?
    Mr. Grevatt. We hope to have those completed this fall. As 
Ms. Sullivan knows, those are currently in interagency review. 
We just, in fact, received comments from the Department of 
Defense and others on the draft, and so we are making progress 
on that. But there are additional discussions that need to be 
had before we can land that document. But we are still hoping 
to have that completed this fall.
    Senator Peters. In the next couple of months, then?
    Mr. Grevatt. That is what we are hoping for, yes, sir.
    Senator Peters. Great. Ms. Sullivan, the question that I 
often get is: What water filters is the Department typically 
providing to homeowners that are impacted by PFAS? How 
confident are you that these filters are actually protecting 
human health?
    Ms. Sullivan. That is an interesting question. I am sorry, 
sir, I do not know the specifics, but I am glad to get that for 
you for the record.
    Senator Peters. Yes, it is critically important that we 
have that.
    Ms. Sullivan. We will do that.
    Senator Peters. Dr. Birnbaum, do you have a comment on 
filters?
    Ms. Birnbaum. I think there is some evidence that granular 
activated charcoal filters can remove some of the PFAS, like 
PFOS and PFOA, at least when it is new. But the efficiency of 
removal decreases over time so you need to replace it. There is 
not much evidence that it removes some of the newer 
alternatives that have been developed.
    Senator Peters. That is a major concern. We are going to 
follow up with both of you on that, if we could.
    Mr. Lepore, I know that GAO has recently added the Federal 
Government's environmental liabilities to the High-Risk List. 
If you could give us some insight as to what the GAO may 
believe is the Federal cost of cleaning up PFAS contamination 
that you are finding?
    Mr. Lepore. Yes, thank you, Senator, for that question. In 
2017, for the first time, we added the government's financial 
exposure to environmental liabilities to our High-Risk List. 
The numbers I am going to give you are 2016 numbers. We do 
expect to have some updates next year when we issue the next 
high-risk update. But at that time, the government's 
environmental exposure was $447 billion for environmental 
remediation.
    Now, this is much more than just water. This is a whole 
variety of different contaminants. The Department of Energy 
(DOE) had the largest share; it was $372 billion. That is about 
83 percent of the total. The Department of Defense was next at 
$63 billion, which was 14 percent of the total. All the other 
agencies combined, other than DOD and Department of Energy, 
were $12 billion, or 3 percent. It is a pretty substantial 
liability. We will have updated numbers next year if we keep 
them on the High-Risk List. That is still under discussion 
right now.
    Senator Peters. But that is overall environmental 
liabilities, not PFAS-specific?
    Mr. Lepore. Correct.
    Senator Peters. Do you have any specific to PFAS?
    Mr. Lepore. We do not have a PFAS or PFOA number in there. 
The biggest issue, I think, is the nuclear weapons complex. 
That is why the Department of Energy is such a large component 
of that.
    Presumably, unregulated contaminants in drinking water 
would be a piece of it, although we do not actually have a real 
number for that. We do not have that right now. We could try to 
get that for you, Senator, if that is helpful.
    Senator Peters. I think it is important that we work on 
that number, especially as you are updating these numbers in 
the months ahead.
    Mr. Lepore. We are happy to do that.
    Senator Peters. I appreciate that.
    In the interest of time, I will now defer to Senator 
Hassan, although I will be providing questions for each of you 
after the meeting.
    Senator Hassan.
    Senator Hassan. Thank you, Senator Peters.
    Ms. Sullivan, I wanted to return to the topic we were 
beginning on at the end of my first round. Given that PFAS 
chemicals are not currently listed as a hazardous substance, 
how is DOD currently handling waste materials that contain PFAS 
chemicals?
    Ms. Sullivan. Thank you, ma'am, for that question. Our 
waste materials we are sending to licensed hazardous waste 
disposal facilities. For the most part, the excess supplies of 
PFAS and those things are going for incineration. Soil-
contaminated is going to permitted hazardous waste landfills.
    Senator Hassan. OK. What is DOD's timeline for research and 
development of fluorine-free foams? When will DOD stop using 
PFAS-containing foams to the maximum extent practicable?
    Ms. Sullivan. We have already stopped using the foams for 
training and testing.
    Senator Hassan. OK.
    Ms. Sullivan. That really limits the exposure to where we 
are fighting actual fires.
    Senator Hassan. Right.
    Ms. Sullivan. As you can appreciate, especially in 
shipboard uses, there are some critical timeframes to be able 
to fight fires.
    We have invested a significant amount of money to do the 
research. I am going to say it is going to take 2 to 3 years. 
We are working in partnership with Dr. Birnbaum's group on 
demonstrating the foams that are currently available that are 
fluorine-free to see if they meet our standards and also 
working with her on testing the ones that are currently on the 
market to figure out how much is actually in there. But it is 
research. It takes time, 2 to 3 years.
    Senator Hassan. Are there other countries that use foams 
that do not have these chemicals in them?
    Ms. Sullivan. Yes, there are, ma'am. There are foams--for 
example, in England they are, and we are working closely with 
them to test the efficacy of them to see if they will, in fact, 
meet our standards. We are in close touch and monitoring all of 
these efforts that are going on.
    Senator Hassan. That is good to know.
    The last thing in this second round, we are hearing, 
obviously, a lot of concerns from firefighters whose protective 
gear contains PFAS. Is there research being done by DOD 
concerning DOD firefighters and their gear and related exposure 
to PFAS?
    Ms. Sullivan. Ma'am, I am not aware of any research on the 
gear itself, but we are working with our health affairs 
counterparts to begin tracking certain exposure levels for our 
active-duty members and former members so we have the long-term 
records of who is exposed when. Of course, we work in 
partnership to share that information with the Veterans 
Administration.
    Senator Hassan. That is really helpful. I would urge you to 
continue to research this area. Here we have people putting 
their lives on the line, first responders, firefighters, people 
in active service for us, and the great irony here is that the 
protective gear may, in fact, be causing them long-term 
devastating health consequences. I think this really should be 
a priority, and I look forward to working with you on it.
    Ms. Sullivan. Thank you.
    Senator Peters. Thank you, Senator, and I would like to 
thank each of the panelists for being here today. This is going 
to be an ongoing issue. We will look forward to working with 
you in the months and years ahead.
    At this time I would like to call up----
    Senator Shaheen. Excuse me, Senator Peters. I have one more 
question, if I could ask that.
    Senator Peters. Absolutely. Go ahead, Senator Shaheen.
    Senator Shaheen. This is for Dr. Grevatt. I know that the 
EPA has been working very hard to try and help address the 
contamination, but it has been nearly 10 years since EPA 
established provisional health advisories for PFOA and PFOS. 
Why after 10 years hasn't the EPA come up with an enforceable 
drinking standard for PFOA and other PFAS chemicals?
    Mr. Grevatt. Thank you very much for the important 
question. There are three criteria in the Safe Drinking Water 
Act that guide this decision on whether to develop an 
enforceable standard.
    The first is whether a contaminant has an impact on the 
health of persons, and I think we have discussed that issue 
extensively here.
    The second is whether that contaminant occurs at a 
frequency and level of concern in the Nation's drinking water 
systems.
    The third is, in the sole judgment of the Administrator, 
there is a meaningful opportunity to reduce public health risk 
through a national drinking water regulation.
    It is really those last two criteria that are the ones that 
the Administrator is thinking about very carefully now. When we 
did our national survey of the Nation's drinking water systems 
for these compounds, we sampled nearly 5,000 systems. It was a 
census of every large drinking water system in the United 
States and a representative sample of the smaller ones. It 
covered 80 percent of the United States population that is 
served by community water systems. We found in that effort 1.3 
percent or 63 of the Nation's systems had levels of these PFOA 
and PFOS above our health advisory values. Additional work in 
the State of Michigan that is underway right now, a 
comprehensive sample of all the drinking water systems in the 
State of Michigan, results for about 750 drinking water systems 
have come back as a part of that effort, and thus far one 
parchment has come back above the health advisory levels.
    These are important considerations about what is the most 
effective tool to make sure that we can protect local citizens 
from contamination in drinking water. Is it a national standard 
that requires all the Nation's systems to sample on some 
regular basis and has the tools to get treatment in place? Or 
is it something that it will address more locally? Those are 
the issues that the Administrator is thinking through. I am not 
trying to signal a direction on that, but just to say these are 
important questions that Acting Administrator Wheeler is 
thinking about, and we will be including this in the National 
Management Plan that we hope to have done at the end of the 
calendar year.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Peters. Thank you, Senator Shaheen. Actually, that 
raises another question I have for you, but then we will 
release you to the second panel.
    Dr. Grevatt, your testimony talked about the Safe Drinking 
Water Act and support of the establishment of criteria for PFOS 
and PFOA. But certainly many people, including myself, and I 
think folks on this Committee, would urge that the Agency may 
need to think more broadly considering the wide range of 
substances that we are talking about.
    Has a broader class-based approach ever been utilized 
before by the Agency for other types of contaminants pursuant 
to the Safe Drinking Water Act?
    Mr. Grevatt. Yes, sir, and there are a couple of examples, 
but in particular, the microbial disinfection byproducts rule 
addresses a suite of disinfection byproducts. We have taken a 
group approach in the past, and I would emphasize that while we 
have been talking--I personally have been talking a lot about 
PFOA and PFOS, EPA has a very active successful effort underway 
to help us to transition to think about the broader group of 
compounds. We think that the work that we are doing on several 
individual compounds is going to help to inform that shift, 
also using some of the tools that Dr. Birnbaum mentioned, like 
the computational toxicology tools to look at a broader suite 
of information, to think about hundreds of compounds, or even 
more, rather than two or three. Your point is very well taken.
    Senator Peters. We will look forward to having that broader 
approach taken by the EPA.
    Thank you again to our panelists, and we look forward to 
hearing from our second panel.
    [Pause.]
    Welcome to our second panel. We appreciate your presence 
here to talk about this issue. We are going to introduce our 
three witnesses, but I think we will start--Senator Hassan, I 
know you have a guest here. If you want to start introducing 
our first witness, then I will immediately introduce the two 
others.
    Senator Hassan. Thank you, Mr. Chairman. I know Senator 
Shaheen joins me in welcoming our first witness here today. It 
is my pleasure to introduce Andrea Amico, co-founder of Testing 
for Pease, a community action group that aims to educate and 
advocate for residents impacted by the water contamination at 
the former Pease Air Force Base in Portsmouth, New Hampshire.
    Andrea was rightfully concerned when media reports began to 
surface that an emergent contaminant called ``PFAS'' had gotten 
into the water her children drank at their daycare center. 
Fearing for their health and the health of her neighbors, 
Andrea began to research and make calls to State officials to 
determine what this contamination might mean for her community.
    Her efforts to raise public awareness and get blood tests 
for those who had been exposed to the contaminant propelled her 
cause to the mainstream, gaining attention from the Department 
of Health and Human Services as well as the Environmental 
Protection Agency. She also started the Testing for Pease group 
in 2015, which continues to this day to keep the Pease 
community well informed of the meetings, media, coverage, and 
latest research on PFAS contamination.
    Andrea holds both a B.S. and a Master's in occupational 
therapy. Those degrees, combined with over a decade of 
experience in the health care field, made her particularly well 
suited to head up efforts to advocate on behalf of other 
concerned residents.
    Since beginning her efforts in 2014, Andrea has turned her 
activism on behalf of the Pease community into a second full-
time job. As far as PFAS contamination goes, no one is better 
informed or more motivated than Andrea. She exemplifies New 
Hampshire's ``all hands on deck'' spirit where we roll up our 
sleeves, we come together, and we work together to solve issues 
facing Granite Staters.
    I urge our Federal agencies and this Subcommittee to listen 
to Andrea and carefully consider her priorities so that we can 
take meaningful action to keep communities in New Hampshire and 
across our Nation safe.
    Thank you, Mr. Chairman.
    Senator Peters. Thank you, Senator Hassan.
    We also have with us today Arnold Leriche, who is a 
founding member and community co-chair of the Wurtsmith 
Restoration Advisory Board in Oscoda, Michigan, and a board 
member of the Pine River-Van Etten Lake Watershed Coalition. He 
has worked for 30 years as an environmental engineer with the 
EPA and served for 23 years in the United States Army National 
Guard and Reserves. Mr. Leriche has retired to Oscoda to enjoy 
fishing on the famous Au Sable River, Lake Huron, and 
surrounding inland lakes and streams, which sounds a lot better 
than being stuck here in a hearing room in Washington. But we 
are certainly very glad that you are here, sir.
    Mr. Putnam is our third witness who began his career 28 
years ago as a firefighter, a crash fire rescue with the United 
States Marine Corps, continuing to serve as crew chief as well 
as an instructor for the American Red Cross. Currently, he is a 
lieutenant with Mid-Atlantic Navy Regional Fire and Emergency 
Services, a certified firefighter, fire officer, fire 
inspector, fire instructor, hazmat technician, and an emergency 
medical technician, has decades of experience with all manner 
of firefighting foams. Mr. Putnam is also vice president of 
Tidewater Federal Firefighters Local F-25 of the International 
Association of Fire Fighters (IAFF), representing Federal 
firefighters at Joint Expeditionary Base Fort Story and Little 
Creek.
    We appreciate all three of you being here with us today. We 
look forward to your testimony, and, Ms. Amico, if you would 
begin.

  TESTIMONY OF ANDREA AMICO,\1\ CO-FOUNDER, TESTING FOR PEASE

    Ms. Amico. Thank you to Chairman Paul, Ranking Member 
Peters, and honorable members of the Subcommittee. Thank you, 
Senator Hassan, for that incredibly kind and heartfelt 
introduction.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Amico appears in the Appendix on 
page 82.
---------------------------------------------------------------------------
    My name is Andrea Amico, and PFAS water contamination is a 
very personal issue for me. My husband and two small children 
were exposed to highly contaminated drinking water at the 
former Pease Air Force Base while at work and attending daycare 
at the Pease Tradeport. My husband took a job on Pease in 2007, 
in 2011 we had our first child, a daughter, and in 2013 we were 
blessed with our second child, a son. We were thrilled to learn 
of a beautiful new daycare center on Pease that was right next 
door to my husband's work. Both of my children started daycare 
at the young age of 12 weeks old.
    When looking into child care facilities, we asked many 
questions of the daycare facilities we considered, but never 
did it cross our minds that we had to question the quality of 
the water.
    You can imagine the devastation I felt when I learned that 
the Pease drinking water was highly contaminated with PFAS from 
AFFF use in May 2014. I live every day with worry that my 
children, who were exposed to high levels of PFAS in their 
early life and at critical stages of their development, will 
now suffer adverse health effects over their lifetime.
    However, I have channeled those feelings of anxiety and 
worry into my advocacy work by forming a community action group 
called ``Testing for Pease'' with two other mothers, Alayna 
Davis and Michelle Dalton. We have successfully advocated for a 
blood testing program, remediation and filtration of our water, 
and a health study to better understand the health impacts to 
our family and our community.
    We also collaborate with other PFAS community leaders 
across the Nation to share best practices, streamline efforts, 
and work together toward making positive change at a national 
level for PFAS-impacted communities. With the incredible 
support of our New Hampshire congressional delegation, Senator 
Hassan and Senator Shaheen are leading the way and making 
Federal policy changes related to PFAS contamination that will 
benefit so many.
    There are many areas of concern related to PFAS exposure. 
They are extremely persistent in the environment; they bio-
accumulate in the body with very long half-lives; and they are 
associated with multiple adverse health effects that impact 
multiple systems of the body, such as different types of 
cancer, impaired immune function in children, elevated 
cholesterol, fertility issues, and more. They also cross the 
placenta to unborn children and can be passed to infants 
through breast milk, which means future unborn generations are 
at risk for the contamination we are facing today.
    The Environmental Working Group estimates PFAS is in the 
drinking water of 110 millions of Americans. As a community 
leader, I feel strongly that we must help impacted communities 
that are suffering now; we must learn more about the long-term 
health impacts of PFAS; and we must take steps to put in place 
more protective measures to prevent any other families from 
being exposed to harmful contaminants in drinking water in the 
future.
    A few of the major challenges and concerns impacted 
community members are facing:
    PFAS are presumed safe until proven toxic and ongoing 
exposure continues. This is evidenced by the EPA only setting 
lifetime health advisories for two of the thousands of PFASs in 
this class of chemicals. With the lack of Federal health 
advisories for all PFAS, millions of Americans continue to be 
exposed to several PFAS in their drinking water today. In the 
absence of leadership and guidance from the Federal Government, 
States are scrambling to find resources and construct their own 
plan on how to manage this growing and widespread issue. We see 
a fragmented and disjointed effort among States, and it is 
critical that we have a consistent and coordinated action plan 
by the Federal Government to tackle this nationwide issue.
    Communities need action now. For far too long, our 
government has not taken swift and meaningful action to address 
PFAS contamination. Although a large amount of contaminated 
communities have been identified in the last few years, the 
reality is that these communities have been exposed to these 
harmful contaminants for decades and are already suffering the 
consequences of this exposure. We need action now, and we 
cannot wait any longer.
    Last, communities should not be financially responsible for 
the cost of this contamination. Sadly, impacted communities are 
facing the financial burden of the costs associated with 
obtaining alternative water supplies, remediation, filtration, 
blood testing, medical bills, and lost wages due to illness. 
The financial responsibility should fall on the polluters, such 
as DOD and industry responsible for the use and manufacturing 
of these chemicals.
    Impacted community members cannot even begin to compete 
with the billion-dollar budgets and extensive legal teams of 
the responsible parties. Instead, we rely heavily on our 
government agencies charged with protecting our health and the 
environment to take the action that puts our best interests 
first.
    In conclusion, we need to stop giving these chemicals the 
benefit of the doubt and instead give public health the benefit 
of the doubt by implementing much stricter standards for all 
PFAS and eliminating ongoing exposure. We need meaningful 
action now from our Federal Government to help those suffering, 
and we must make the polluters pay for the damage they have 
done. We cannot lose sight that water is the most basic need 
for all living beings, and if we are not prioritizing safe and 
clean drinking water for our Nation, then we are failing at a 
very basic level.
    Thank you for the opportunity to testify in front of you 
today, and I look forward to any questions you may have.
    Senator Peters. Thank you, Ms. Amico. I appreciate that 
testimony. Mr. Leriche.

 TESTIMONY OF ARNOLD LERICHE,\1\ COMMUNITY CO-CHAIR, WURTSMITH 
                   RESTORATION ADVISORY BOARD

    Mr. Leriche. Good afternoon, Chairman Paul, Ranking Member 
Peters, and honorable Members of the Subcommittee. My name is 
Arnold Leriche, and I am a retired environmental engineer from 
the EPA and a Vietnam era veteran.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Leriche appears in the Appendix 
on page 89.
---------------------------------------------------------------------------
    I retired to Oscoda, Michigan, mostly because I wanted to 
go fishing on the Au Sable River--which some of you have 
mentioned--the many beautiful inland lakes, and Lake Huron.
    One thing I quickly learned after moving to Oscoda is that 
many people fill their freezers with the fish they catch and 
the wildlife they hunt. It is second nature to the residents of 
northern Michigan.
    Oscoda sits next to the former Wurtsmith Air Force Base on 
the banks of the Au Sable River and the shores of Lake Huron. 
The Air Force used firefighting foam at a training site on the 
base. That training site is adjacent to Clark's Marsh, a 
beautiful wetland.
    For more than 25 years, PFAS contamination drained into 
Clark's Marsh and from that marsh into the rivers and lakes of 
northern Michigan. The base closed in 1993, but it was not 
until 2010 that our State environmental department started to 
investigate the site for potential PFAS contamination.
    I learned from news reports in 2012 that they had 
discovered fish in Clark's Marsh with the highest levels at 
that time of PFAS contamination found anywhere in the world. 
Then they found very high levels of contamination in the 
adjacent Au Sable River. I learned then of the health effects 
of PFAS contamination. We were advised, ``Do not eat the 
fish.'' You can imagine how that feels to residents of Oscoda 
who have spent their lives eating contaminated fish and serving 
it to their children.
    We now know that the contamination is in the groundwater 
and drinking water, and it is even spreading into Lake Huron, 
which is a source of drinking water for hundreds of thousands 
of Michiganders.
    I participated in sampling the drinking water around Van 
Etten Lake which adjoins the base. I will never forget the lake 
resident who asked, ``How long has the contamination been in my 
well?'' I could see the fear in her eyes as she thought about 
her grandchildren who had been drinking that water for 20 
years.
    The Air Force owned a beach on Van Etten Lake, adjacent to 
the base, which has been given to the township. On this beach, 
our friends fish and have picnics, children play and learn to 
swim. At this beach, on most days you will find a bright white 
foam washing up on shore. The EPA says that PFAS contamination 
in drinking water is safe up to 70 parts per trillion. In this 
foam, the Air Force has found the level at 165,000 parts per 
trillion.
    Would you want your children and grandchildren playing in 
that water? Would you want them eating the fish?
    The harm extends beyond the residents of Oscoda. We now 
know that there was contamination in the drinking water on 
Wurtsmith when it was an active base. I have personally heard 
from veterans, such as Staff Sergeant Rick Thempto and Airman 
James Bussey, who are to this day suffering from health 
effects.
    I appreciate that the Air Force has taken some steps to 
address the contamination at Wurtsmith, including recently one 
step, they are looking at a State standard of 12 parts per 
trillion in groundwater as it enters a water body. That is Rule 
57. They are finally acknowledging it.
    I listened to the testimony of the government witnesses. I 
am glad that they are beginning to acknowledge this problem and 
think about steps to fix it.
    But the people of Oscoda do not have any more time for 
delays or missteps. We need action now. We want the responsible 
parties and the Federal Government to take this seriously right 
now.
    We need interim mitigation. They already have enough 
information to take these actions. For businesses on the former 
base, we need assistance with indemnification and insurance to 
secure employment and encourage development. We need assistance 
in providing municipal water to residents who cannot drink 
their own well water.
    I ask this Subcommittee, please do not forget about the 
people of Oscoda-Au Sable Townships and those like us all 
around the country. Thank you for the opportunity to speak on 
their behalf. I look forward to you questions.
    Senator Peters. Thank you, Mr. Leriche. I appreciate your 
testimony. Mr. Putnam.

   TESTIMONY OF TIMOTHY PUTNAM,\1\ VICE-PRESIDENT, TIDEWATER 
 FEDERAL FIREFIGHTERS LOCAL F-25, INTERNATIONAL ASSOCIATION OF 
                         FIRE FIGHTERS

    Mr. Putnam. Thank you, Chairman Paul, Ranking Member 
Peters, and distinguished Members of the Subcommittee. My name 
is Timothy Putnam. I am the vice president of Tidewater Federal 
Fire Fighters Local F-25 of the International Fire Fighters 
Association. I appreciate the opportunity to testify today on 
behalf of General President Schaitberger and over 315,000 
firefighters and emergency medical personnel who serve this 
Nation as the first line of defense against emergencies and 
disasters.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Putnam appears in the Appendix on 
page 92.
---------------------------------------------------------------------------
    For over 28 years, I have been employed by the Department 
of Defense. After 4 years of military service, I transitioned 
into a civilian fire fighter position with the Department of 
the Navy, where I currently hold the rank of lieutenant at 
Joint Expeditionary Base Little Creek-Fort Story. As a 
firefighter, I have witnessed and participated in routine 
apparatus checks of AFFF which is known to contain the toxic 
chemicals referred to as PFAS.
    While engaged in operations utilizing AFFF, firefighters 
are regularly exposed to toxic PFAS. I have worked with AFFF on 
a continuous basis throughout my career. During my 28 years 
with the Department of Defense, the majority of my contact with 
AFFF is without benefit of adequate personal protection 
equipment.
    During the 1990s the use of firefighting foam agents at 
military bases was virtually unchecked. There was an abundant 
supply kept in the fire station without any limitation on its 
use or a requirement of protecting oneself with PPE.
    AFFF was thought to be so safe that I recall using it as a 
substitute for truck soap and station soap. We cleaned vehicles 
and station floors. Firefighters were required to train with 
and ensure the ready availability of such foam. I performed 
daily checks of my ARFF-assigned vehicles by flowing a few 
gallons of water and AFFF. We also conducted training exercises 
involving hands-on fire extinguishment of jet fuel burning 
pits. While training with handlines, firefighters would wade 
into the flaming fuel pit to practice the technique called 
``pushing foam'' across the burning jet fuel. Exposure to AFFF 
was a regular and common occurrence.
    As awareness of the environmental impact of toxic foam 
grew, base officials limited where firefighters were permitted 
to release AFFF. Additionally, the frequency of the foam 
discharge occurring as part of regular vehicle checks 
decreased. By 2009, discharges dropped off to a monthly basis. 
Today such discharges are taking place on a substantially 
reduced quarterly or semiannual basis under very controlled 
situations.
    We know that regular exposure to AFFF causes PFAS to 
present in a firefighter's blood and tissue where it can remain 
for years and build up to concentrations that may cause health 
effects. Scientific studies link PFAS to cancer, thyroid and 
liver damage, and other disorders. It was not until recently 
that I became educated about the potential health impacts of 
AFFF. Alternate foams such as C6 or fluorine-free foam provide 
a less toxic option. Fluorine-free foams are gaining acceptance 
in Europe and Australia where the use of mil-spec AFFF is not 
required. European locations having transitioned to a new 
formulation have reported acceptable firefighting experiences 
with the foam. As we learn more about the toxic impact of PFAS, 
we must take steps to reduce firefighters' exposure and protect 
their health. We, therefore, seek to ultimately discontinue the 
use of toxic foams. Meanwhile, we know that firefighters have 
been and will continue to be exposed to toxic PFAS. Although 
the EPA and manufacturers have worked to phaseout AFFF, PFOS, 
and PFOA foams may still be used or in stockpiles stored in 
fire stations and warehouses for years to come, continuing to 
expose firefighters and place their health at risk.
    Additionally, in the past PFOA was found in turnout gear as 
a component of such gear as moisture barriers. Although major 
U.S. manufacturers have assured the IAFF that PFOA is no longer 
present within turnout gear, the toxin may persist in the 
legacy gear. To protect firefighters' health, we support 
discontinuing the use of legacy foams and turnout gear 
containing PFOA.
    We also believe all firefighters should receive mandatory 
training on the hazards of toxic foam and annual physicals to 
determine the level of PFAS in a firefighter's bloodstream. 
Such information will allow doctors to take active steps to 
better protect health and treat potential health impacts which 
may have already occurred.
    In conclusion, we must take immediate steps to limit 
firefighters' exposure to the toxic formulations of AFFF. 
Again, I appreciate the opportunity to testify, and I am happy 
to answer any questions at this time.
    Senator Peters. Thank you, Mr. Putnam.
    Mr. Leriche, you certainly spoke in a very heartfelt way 
about the impact that this contamination has had on your 
community and seeing how it is impacting really every family in 
the area as well. As your background was with the EPA and 
working on many technical aspects of environmental cleanup, 
what specifically would you like to see out of the EPA and 
Federal agencies? Who do you believe should be responsible for 
that remediation? What advice would you give us in terms of our 
dealings with the EPA as they move forward?
    Mr. Leriche. Thank you, Senator, for the question. I must 
say at the outset that is above my pay grade, at least in the 
EPA, and my area of expertise at EPA was not with CERCLA or 
Superfund but other enforcement statutes.
    However, I can address definitely the Department of 
Defense. As the co-chair of the Wurtsmith Restoration Advisory 
Board, I will answer in that area, and I will stay out of 
trouble.
    Senator Peters. Please do.
    Mr. Leriche. The timing of their investigations and how 
long it takes for them to investigate a site, especially under 
their current implementation of CERCLA, has been very 
frustrating because it is linked so significantly to the 
lifetime health advisory.
    In my calls almost weekly with my counterpart co-chair in 
the Air Force, it is constantly causing problems in trying to 
get remediation and investigation action happening quickly. 
That particular interpretation of the CERCLA is--and the answer 
I think over here--has caused us so much delay that it is very 
troublesome. I think that is an important thing that needs to 
be opened up, and that is the biggest one, because if they had 
the money and they had the interpretation of the national 
policy to support real quick remediation and investigation, 
then we would have much more done at this point. There have 
been years of delay on this particular point because they are 
following national policy.
    Senator Peters. Obviously, the people of Oscoda cannot wait 
any longer. When you hear talk about this may take 5 or 10 
years, that is simply unacceptable.
    Mr. Leriche. That is correct, especially when we know the 
health effects can possibly skip generations, so we are talking 
about grandchildren. We are not going to be here when they have 
the effects. Timing cannot be bought back. We have to do it 
now.
    Senator Peters. What would citizens of Oscoda consider 
adequate remediation? When it is all said and done, what would 
you like to see?
    Mr. Leriche. Rule 57 I mentioned--and I am sorry I added 
that to my testimony--that is a huge step, because it was based 
somewhat on health studies by the State in 2014 to control the 
bio-accumulating effect of PFOS in fish and then humans eat the 
fish. That is why there is ``Do Not Eat the Fish'' around 
Wurtsmith. But it is an advisory. That statute is an advisory 
for fish consumption. But this standard is an enforceable 
standard by the State, and it must be incorporated into the 
Department of Defense's remediation plans and action. That is 
where they have been avoiding putting it in their action plans, 
and now they are thinking about it.
    Senator Peters. Thank you.
    Mr. Putnam, thank you for your service and your long career 
fighting fires as a professional firefighter. I must say I 
appreciate the support from the International Association of 
Fire Fighters when we worked on removing the Federal mandate 
that the FAA regulations require fluorinated chemicals. We are 
going to be changing that as we move the FAA reauthorization 
forward as we look at alternatives.
    I think you may have heard some testimony of the folks 
before you who claim that the military still believes that 
these chemicals are necessary to fight fires, although in your 
testimony you talk about a number of alternatives.
    Please elaborate on that based on your experience as a 
professional firefighter. Can we effectively fight fires with 
alternatives?
    Mr. Putnam. Senator Peters, I would first like to thank you 
for your leadership on these fluorine-free foams. It is 
critical that we provide these to our firefighters. The 
elements that are out there, the research is being done now. We 
are taking a back seat to Europe and Australia at this time. 
Will they work? Absolutely. Will we have to adjust how we 
train? Yes. Every time we have a new tool, we change and we 
train. With what we are using right now, the training is very 
limited, and it is on a very sporadic basis. A new fluorine-
free foam would work outstanding for us.
    Senator Peters. Great. Thank you. Senator Hassan.
    Senator Hassan. Thank you again, Senator Peters, and thank 
you again to this panel.
    Ms. Amico, I just wanted to thank you again for taking the 
time out of what I know is a very busy schedule and time away 
from your family to come here to D.C. to tell your story. As 
you mentioned in our meeting earlier, your husband was employed 
for a company on Pease for almost 9 years, and both of your 
children have attended daycare on Pease since they were, what, 
about 12 weeks old?
    Ms. Amico. Yes.
    Senator Hassan. You have spoken about some of the ways PFAS 
contamination impacted your community and other communities 
across the Nation, but I thought I would just give you this 
opportunity to expand on that a little bit, and then I want to 
follow up on what we can do to help.
    Ms. Amico. Thank you for the question. PFAS contamination 
is clearly a widespread issue. It is impacting several 
communities across the country, and it is causing a lot of 
stress for people. The fear of the unknown, having these 
exposures, in some communities having blood testing that shows 
high levels but not quite knowing what those high levels in the 
blood mean is creating worry and fear for people. We are 
extremely grateful for the health study that will be coming 
down the pike for our community that may will benefit from. But 
we are also seeing that people are having to absorb the 
financial costs of the contamination, which is incredibly 
wrong. Like I said in my testimony, people are having to pay 
for their own filters or for bottled water. If communities are 
not being offered blood testing, some are opting to pay for 
their own blood testing, which is very expensive. There are 
medical bills and lost work due to health effects from PFAS 
exposure. And like I touched upon, there is the emotional toll.
    I think we are seeing communities face emotional, physical, 
and financial impacts because of this contamination.
    Senator Hassan. Thank you. You noted that without Federal 
leadership, States are left to investigate PFAS contamination 
and provide remedial action to contaminated sites on their own. 
Do you think the government is acting in a timely manner to 
address PFAS contamination across the country?
    Ms. Amico. I do not. I think we need a more consistent 
approach among the Federal agencies, particularly through 
ATSDR, EPA, NIEHS, and I was happy to hear of some of that 
collaboration today in the testimony from the first panel 
members, but we need more of that. We need a much more 
consistent approach, because we are seeing other States take 
different steps, different measures, and it is leaving us, as 
community members across this country, wondering why is Vermont 
lowering a standard to 20 parts per trillion for five different 
PFAS when the EPA is saying 70 parts per trillion for two 
different PFAS. Then we are seeing New Jersey propose lower 
standards. We are seeing Massachusetts and Connecticut take 
five different PFAS into consumer for their 70 parts per 
trillion. It is very confusing for community members, and it is 
also very alarming--what are these States seeing, what science 
are they analyzing that they are coming to these different 
numbers? We need a much more consistent and coordinated 
approach than what we have.
    Senator Hassan. That really leads me to the next question, 
and you have answered it in part. Do you feel that the current 
EPA lifetime health advisories for PFOS and PFOA of 70 parts 
per trillion are protective enough?
    Ms. Amico. I do not. I say that based on information that I 
have read in some of the New Jersey data that has come out of 
their Drinking Water Quality Institute and looking at most 
sensitive populations and also in my discussions with other 
researchers and academics across the country. I think that we 
need to make sure EPA is taking into consideration the most 
sensitive populations such as unborn children and infants. 
Also, I would like to see the EPA, ATSDR, and NIEHS look at 
exposed communities because they need to be considered a 
sensitive population as well. Should a community member who 
drank high levels of PFAS with high levels in their blood be 
allowed to continue to drink 65 parts per trillion because it 
is under 70? No, to me that is a sensitive population that we 
need to be more protective of. As we heard earlier in the 
statements by the government officials, it is a widespread 
issue. It is found in the blood of almost every single 
American. We all have some level of exposure, but we have a 
large and growing amount of community members that we are 
discovering have a very high exposure, and we need to take 
those folks into consideration as well as we move forward with 
next steps.
    Senator Hassan. Thank you for that. I just want to commend 
you again. You and your colleagues Alayna Davis and Michelle 
Dalton have done incredible work, and you are continuing to do 
it with community groups like Testing for Pease. It has been, 
obviously, really important to the safety of all citizens 
impacted by dangerous contaminants in our drinking water.
    In your opinion, what can we as elected officials do to 
help important action groups like yours continue to succeed?
    Ms. Amico. I think a few major things that government can 
do is we can take action now. It is disheartening to hear that 
meaningful action can take 5 and 10 years when at Pease we are 
coming up on 5 years of discovering our contamination. I do not 
think that we can continue to delay anymore.
    We also need to see meaningful action to the entire class 
of PFAS, so just trying to do one contaminant at a time is not 
working. We have thousands of them in our environment. We have 
several of them found in drinking water across the country, and 
we need to regulate it as a class.
    We also need to provide biomonitoring and blood testing for 
impacted community members, and we also need to provide medical 
monitoring, which is a program that folks can participate in 
with their physicians to better monitor their health in the 
setting of the exposure. I like to point out the difference. 
The health study, there will be a lot of benefits that come 
from that, but we heard from Dr. Birnbaum that could take 5 
years to get that information.
    What can I do today? I have two children with high levels 
in their blood. What can I do today with their pediatrician to 
monitor their health? Does that mean check additional labs? 
Should they be seen twice a year instead of once a year? We 
need some more clear guidance to impacted community members. We 
could not prevent this contamination from happening, but what 
can we do moving forward to protect our health?
    Senator Hassan. Thank you for that. Again, I want to thank 
Senator Peters and Chairman Paul for having this hearing.
    I want to ask a very quick last question to Mr. Putnam just 
to clarify what I think I heard you say to Senator Peters. 
Earlier Ms. Sullivan from the Department of Defense said it 
would take more research before the Defense Department could 
decide to move to PFAS-free foam or protective gear. I take it, 
given that Europe and, I think you said, Australia already have 
gotten there, that you might think that we do not need more 
research, we just need to use their example and get going on a 
transition.
    Mr. Putnam. Thank you for the question. I believe we should 
use it as a tool.
    Senator Hassan. OK.
    Mr. Putnam. We should use it for our own research and 
moving forward and getting what we need here.
    Senator Peters. OK. Thank you very much, and thank you 
again, Senator Peters.
    Senator Peters. Thank you, Senator Hassan. Senator Shaheen.
    Senator Shaheen. Thank you, Senator Peters. Again, I very 
much appreciate being able to be part of this very important 
hearing on an issue that, as we heard from the first panel--and 
you all clearly can confirm--this is an issue that affects tens 
of millions of people across the country. The cost of cleanup 
to address this is tens of billions of dollars. We do not even 
know yet what the long-term health impacts are.
    We have a lot of work to do, and I want to begin with you, 
Ms. Amico. Thank you for all of your advocacy and for the group 
that you started. We affectionately call you all the ``Pease 
Moms'' because of all of the work that you have done to make 
sure that something was done at the local, State, and Federal 
level to address the contamination that has affected you and 
your family and so many people.
    I want to follow up on Senator Hassan's question about what 
we can do. You laid out some very impressive recommendations 
for what we ought to be thinking about as we are addressing 
this issue. If you could ask Congress to do one thing in the 
immediate term, what would it be?
    Ms. Amico. Thank you for the question. I would say our top 
priority would be to stop the ongoing exposure, so we would 
need to strictly regulate PFAS as an entire class to a much 
lower standard than what we have right now to prevent ongoing 
exposure. That would be a top priority, stop the exposure.
    Senator Shaheen. Clearly, prevention makes a lot more sense 
than cleanup later on.
    I want to ask you, Mr. Leriche, because it is my 
understanding that you and Andrea have worked together with 
other groups across the country to raise concern about this. 
Can you talk about how you have done that, how you all have 
worked together?
    Mr. Leriche. Thank you for the question, Senator Shaheen. 
What has not come out yet is my birth State was New Hampshire.
    Senator Shaheen. I knew you looked familiar. [Laughter.]
    Mr. Leriche. I am surprised you did not pick up on the 
accent. But your question, if you could repeat just quickly?
    Senator Shaheen. Just I am interested because we have 
obviously got----
    Mr. Leriche. Oh, how we work together. I am sorry.
    Senator Shaheen [continuing]. People in the audience who 
have been affected by this across the country, and I know from 
talking to Andrea that one of the things you all have done very 
effectively is network with groups across the country to see 
how you could advocate and build on what you are learning in 
different parts of the United States. Can you talk about some 
of the things that you have done?
    Mr. Leriche. Thank you. When I first started realizing the 
significance in Oscoda, I started to see that there was a 
process where the Air Force would bring the community in, and 
it is called the ``Restoration Advisory Board (RAB).'' I went 
back home, and I attended the RAB at Pease, and I linked up 
with some of the program managers for remediation there from my 
old agency. That is where I first started. I met Alayna there. 
I did not meet Andrea until today, actually, face to face, but 
I had talked to her, plus other groups. I think that that is 
where the community members, such as myself, need to do is we 
have to become educated on how the Federal agencies do their 
business, because if we do not, then we are just listening. We 
are not able to act and be activists until we understand what 
motivates them and what regulations do they have. That was the 
first exposure. The energy that these three ladies and others 
have done their business over the last 4\1/2\ years is 
outstanding.
    That is where we gain the knowledge, and I would suggest 
that all communities, at least around Department of Defense 
sites, do that, they engage with this group, the PFAS National 
Coalition that holds calls, and that is where I have learned a 
lot about what is going on. We can use all of our expertise to 
bear on the large agencies that may not be acting as fast as we 
need.
    Senator Shaheen. All right. Let me just say how effective 
you have all been, because when I introduced the amendment in 
the defense authorization bill 2 years ago for the health 
study, we went around and talked to people on the committee 
from all over the country. There were a significant number of 
them who had heard from their constituents that this was an 
issue in their communities and in their States. It has made a 
huge difference, and that advocacy is going to continue to make 
a difference as we go forward.
    I just want to ask a final question of you, Mr. Putnam, 
because one of the things that Congress did this summer was to 
pass the Firefighters Cancer Registry. Talk about why that is 
so important, especially as we think about an issue like this.
    Mr. Putnam. Thank you for the question. As we move forward, 
firefighters have a 60 percent more likely chance to get 
cancer. This is going to give us a basis to lead and help the 
IAFF lead this drive to help find out what is causing it. 
Whether it may be the PFAS or the environmental concerns that 
we deal with, this is going to drive that, and the Cancer 
Network is a big part of it also.
    Thank you.
    Senator Shaheen. Thank you.
    Thank you very much again, Mr. Chairman, for holding this 
hearing.
    Senator Peters. Thank you, Senator Shaheen. I appreciate 
both my colleagues for being here to the very end on this very 
important topic. I would certainly like to thank everybody here 
in attendance today. This is clearly a significant issue, a 
significant issue that may be impacting tens of millions, 
perhaps a hundred million Americans. It is an issue that we are 
going to likely be dealing with for a long period of time. We 
have to be focused on it because we do not have time. We 
already have folks, as we heard from our witnesses here today, 
that have been dealing with this for far too long, over a 
decade, and may have been exposed over several decades, which 
requires action.
    I would also like to let folks know we have been getting 
not only the testimony here but a lot of letters and comments 
coming in. I got additional comments as I was sitting here from 
folks across Michigan. I would encourage anyone else to submit 
anything they would like to be put into the official hearing 
record. The hearing record will remain open for 15 days until 
October 11 at 5 p.m. for the submission of statements as well 
as questions for the record, questions that individuals may 
want to ask of folks who appeared before this Committee.
    With that, thank you again to all of our witnesses, and the 
hearing is adjourned.
    [Whereupon, at 4:41 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
